<html>
<title> - ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2018</title>
<body><pre>[Senate Hearing 115-]
[From the U.S. Government Publishing Office]


 
    ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2018

                              ----------                              


                        WEDNESDAY, JUNE 14, 2017

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:40 p.m. in room SD-138, Dirksen 
Senate Office Building, Hon. Lamar Alexander (chairman) 
presiding.
    Present: Senators Alexander, Hoeven, Feinstein, Udall, and 
Merkley.

                          DEPARTMENT OF ENERGY

                National Nuclear Security Administration

STATEMENT OF HON. LIEUTENANT GENERAL FRANK G. KLOTZ, 
            U.S. AIR FORCE (Retired), UNDER SECRETARY 
            FOR NUCLEAR SECURITY AND ADMINISTRATOR
ACCOMPANIED BY:
        PHILIP T. CALBOS, ACTING DEPUTY ADMINISTRATOR FOR DEFENSE 
            PROGRAMS
        DAVID G. HUIZENGA, ACTING DEPUTY ADMINISTRATOR FOR DEFENSE 
            NUCLEAR NONPROLIFERATION


              opening statement of senator lamar alexander


    Senator Alexander. The subcommittee on Energy and Water 
Development will please come to order. Today's hearing will 
review the Administration's fiscal 2018 budget request for the 
National Nuclear Security Administration. This is the second of 
the subcommittee's four budget hearings this year and we will 
have two more this month.
    Let me make two preliminary remarks. There is one 
representative of the Capitol Police Force here in the room 
with us and I want to thank him and his colleagues for their 
courage today. They helped prevent what could have been a 
massacre in Alexandria when the gunman came in and began firing 
at Congressmen. So we thank you for that and we hope that those 
who are wounded including two Capitol policemen or women will 
recover, as well as Congressman Scalise and a staff member.
    Second, we have a distinguished group of witnesses that I 
am going to introduce in a minute, but I believe both General 
Klotz and Admiral Caldwell have been working with us for about 
3 years now. And I would say to both of you how much I 
appreciate your leadership and your willingness to answer our 
questions and work with us and show up and brief us when we ask 
you to do that, and I thank you for that.
    Senator Feinstein and I will each have an opening 
statement. We will recognize each Senator for up to five 
minutes for an opening statement, alternating between majority 
and minority in the order in which they arrived. We will then 
turn to General Klotz to present testimony on behalf of the 
National Nuclear Security Administration and then give Admiral 
Caldwell an opportunity to make a statement.
    At the conclusion of the witnesses' testimony, I will then 
recognize Senators for five minutes of questions in the order 
in which they arrived alternating between parties.
    First, I would like to thank our witness for being here and 
I would like to acknowledge, once again, my respect and 
appreciation for Senator Feinstein and the way that she is such 
a disciplined student of the issues that she cares about and a 
good partner to work with. So I thank her for that and for her 
leadership.


   fiscal year 2017 energy and water development appropriations bill


    I am very pleased with the fiscal year 2017 Energy and 
Water Appropriations Bill, the one we just finished. It 
provided a record level of funding for the Office of Science, a 
record level of funding for the Corps of Engineers, continued 
to support supercomputing, maintained the Nation's nuclear 
weapons stockpile, and cut wasteful spending.
    I think the committee did a very good job with the help 
of--we had about 87 members of the Senate who had their oar in 
the water in some way in our bill and setting priorities. I 
look forward to working with Senator Feinstein on another 
strong bill this year.


                    fiscal year 2018 budget request


    Our witnesses today, as I mentioned, Lieutenant General 
Frank Klotz, the Administrator of NNSA (National Nuclear 
Security Administration); Admiral Frank Caldwell, the Deputy 
Administrator for Naval Reactors; Mr. Phil Calbos, Acting 
Deputy Administrator for Defense Programs; Mr. David Huizenga, 
Acting Deputy Administrator for Defense Nuclear 
Nonproliferation. Welcome to all four of you.
    We are here today to review the Administration's fiscal 
year 2018 budget request for the National Nuclear Security 
Administration, the semi-autonomous agency within the 
Department of Energy that is responsible for a vital mission--
maintaining our nuclear weapons stockpile, reducing the global 
dangers posed by weapons of mass destruction, and providing the 
Navy with safe and effective nuclear power.
    The President's fiscal year 2018 budget request for NNSA is 
$13.9 billion, an increase of $993 million, 7.7 percent over 
the fiscal year 2017 enacted level. Today, I would like to 
focus my remarks and questions on three main areas: (1) keeping 
critical projects on time and on budget; (2) effectively 
maintaining our nuclear weapons stockpile; and (3) supporting 
our nuclear Navy.


            keeping critical projects on time and on budget


    Now, on the first, the NNSA is responsible for three of the 
largest construction projects in the Federal Government: the 
Uranium Processing Facility in Tennessee; the MOX (Mixed Oxide) 
Fuel Fabrication Facility in South Carolina; and the plutonium 
facility in New Mexico. Combined, these projects could cost 
more than $20 billion to build. Of course, that does not 
include the cost to operate the facilities. Over the past 5 
years, Senator Feinstein and I have worked equally hard and had 
an equally high priority on trying to keep those costs from 
skyrocketing, whether I was chairman of the subcommittee or she 
was chairman that has been a shared mission that we have. We 
want to make sure that hard earned taxpayer dollars are spent 
wisely and that these projects are on time and on budget.
    Senator Feinstein and I have focused much of our oversight 
on the Uranium Processing Facility in Tennessee over the past 5 
years. That oversight includes regular meetings with the 
Department's leadership to discuss the project, particularly 
how the Department is implementing the recommendations of a Red 
Team review, completed in 2014, that detailed ways to get the 
project on track.
    Senator Feinstein and I requested that 2014 Red Team review 
which was headed by Dr. Thom Mason, formerly the director of 
the Oak Ridge National Laboratory. The Red Team recommended 
ways to get the project back on time and on budget. General 
Klotz has previously told us that all of the Red Team 
recommendations are being followed, and I think that is a big 
part of the reason the project is moving along nicely. We have 
said the project needs to be completed by 2025 at a cost of no 
more than $6.5 billion, and the design of the nuclear 
facilities needs to be 90 percent before construction of those 
buildings begins.
    I recently visited Y-12 in Oak Ridge with Secretary Perry 
and saw the work being done to build the two new uranium 
processing facilities. I understand the designs for the two 
nuclear buildings will be more than 90 percent complete by the 
end of the year and ready to start construction next year, 
2018.


                 mixed oxide fuel fabrication facility


    The MOX Fuel Fabrication Facility, a major construction 
project in South Carolina, has also raised several concerns 
because of growing costs. Senator Feinstein and I asked for a 
Red Team review of the MOX project as well. That was in 2015, 
to try to get the project back on track. The Red Team concluded 
that the MOX project would cost about twice as much each year 
as an alternative, known as Dilute and Disposal Alternative. 
The cost to build the MOX facility was estimated at over $17 
billion. Once the MOX facility is built the cost of the MOX 
option would be $800 million to $1 billion per year. The dilute 
and disposal facility will require up to $500 million to build 
the processing lines and will cost less than $400 million per 
year to operate.
    The Red Team also found that the Dilute and Disposal 
Alternative would get the plutonium out of South Carolina 
faster than the MOX project. In other words, Dilute and 
Disposal Facility would cost less, move more rapidly, and get 
the plutonium out of South Carolina faster.
    The budget request proposes termination of the MOX project. 
President Obama's last budget did that. President Trump's first 
budget does the same. And it includes $9 million to build 
additional facilities for the Dilute and Disposal alternative. 
I look forward to hearing more about that from General Klotz 
today.
    Finally, you are in the early stages of the design for a 
new plutonium facility in New Mexico, the third multi-billion 
dollar project included in the NNSA budget request. I would 
like to hear from the witnesses how we have incorporated the 
lessons learned from the uranium facility and the MOX project 
into the design of the plutonium facility to make sure the 
project can be completed on time and on budget.


         effectively maintaining our nuclear weapons stockpile


    Now, a second major part of NNSA's budget is to maintain 
our nuclear weapons stockpile. I want to make sure, again, that 
we are spending our dollars effectively. The budget request 
includes $1.7 billion to continue the four ongoing life 
extension programs, which fix or replace components in weapons 
systems to make sure they are safe and reliable.
    On my recent trip to Y-12 with Secretary Perry, I saw work 
on the W76 Life Extension Program when I toured the Beta-2E 
facility. That tour made two things clear to me. We have some 
very dedicated and well trained people working every day to 
modernize our nuclear weapons stockpile, and two, we need to 
continue to replace outdated facilities at Y-12 and other 
nuclear weapons production sites.
    During that tour, we talked about the innovative contract 
that NNSA has used to drive cost savings by the contractor. My 
understanding is that you may have saved several hundred 
million dollars since 2014 and that some of that funding has 
been reinvested in site infrastructure. I would like to hear 
more about that today. And I would like to also ask you whether 
you will be able to meet your production deadlines on time and 
on budget for the life extension programs.


                      supporting our nuclear navy


    Now, finally Naval Reactors is responsible for all aspects 
of nuclear power for our submarines and aircraft carries. 
Admiral, you have a lot on your plate right now. You are 
designing a new reactor core for the next class of submarines, 
refueling a prototype reactor, and building a new spent fuel 
processing facility.


       navy's consolidated interim storage for used nuclear fuel


    Admiral Caldwell and I had an opportunity to talk about the 
new spent fuel processing facility last week. It is part of the 
Navy's consolidated interim storage for its used nuclear fuel. 
This is a familiar subject to Senator Feinstein and to me. 
Interim storage of used nuclear fuel from commercial power 
reactors is a topic we have been working on for a long time.
    The Navy's program shows it can be done safely and 
effectively, but that does not replace the need for a permanent 
repository at Yucca Mountain. The Navy's used nuclear fuel will 
still go to Yucca Mountain once it is built.
    I look forward to Admiral Caldwell's comments today on the 
progress he is making on this important work, and particularly 
how he stores his used nuclear fuel. The NNSA needs to complete 
a lot of important work, and this work is going to require good 
planning and effective oversight.
    I look forward to working with you as we begin putting 
together our Energy and Water Appropriations Bill for fiscal 
year 2018 and also with Senator Feinstein.
    [The statement follows:]
             Prepared Statement of Senator Lamar Alexander
    First, I would like to thank our witnesses for being here today, 
and also Senator Feinstein, with whom I have the pleasure to work with 
again this year to draft the Energy and Water Appropriations bill.
    I am very pleased with the fiscal year 2017 Energy and Water 
Appropriations bill, which provided a record level of funding for the 
Office of Science and the Corps of Engineers, continued to support 
supercomputing, maintained the Nation's nuclear weapons stockpile, and 
cutting wasteful spending. I look forward to working with Senator 
Feinstein on another strong bill this year.
    Our witnesses today include Lieutenant General Frank Klotz, the 
Administrator of the National Nuclear Security Administration (NNSA); 
Mr. Phil Calbos, Acting Deputy Administrator for Defense Programs; Mr. 
David Huizenga, Acting Deputy Administrator for Defense Nuclear 
Nonproliferation; and Admiral Frank Caldwell, Deputy Administrator for 
Naval Reactors.
    We're here today to review the administration's fiscal year 2018 
budget request for the National Nuclear Security Administration (NNSA), 
the semi-autonomous agency within the Department of Energy that is 
responsible for a vital mission--maintaining our nuclear weapons 
stockpile, reducing the global dangers posed by weapons of mass 
destruction, and providing the Navy with safe and effective nuclear 
power.
    The President's fiscal year 2018 budget request for the NNSA is 
$13.9 billion, an increase of $993 million (7.7 percent) over the 
fiscal year 2017 enacted level.
    Today, I'd like to focus my remarks and questions on three main 
areas:
  --Keeping critical projects on time and on budget;
  --Effectively maintaining our nuclear weapons stockpile; and
  --Supporting our nuclear Navy.
            keeping critical projects on time and on budget
    The NNSA is responsible for three of the largest construction 
projects in the Federal Government:
  --the Uranium Processing Facility in Tennessee;
  --the MOX Fuel Fabrication Facility in South Carolina; and
  --the Plutonium Facility in New Mexico.
    Combined, these projects could cost more than $20 billion dollars 
to build, and that doesn't include the costs to operate the facilities. 
Over the past 5 years, Senator Feinstein and I have worked hard to keep 
costs from skyrocketing. We want to make sure hard-earned taxpayer 
dollars are spent wisely and that these projects are on time and on 
budget.
    Senator Feinstein and I have focused much of our oversight on the 
Uranium Processing Facility in Tennessee over the past 5 years. That 
oversight includes regular meetings with the Department's leadership to 
discuss the project--particularly how the Department is implementing 
the recommendations of a Red Team review, completed in 2014, that 
detailed ways to get the project on track.
    Senator Feinstein and I requested that 2014 Red Team review, which 
was headed by Dr. Thom Mason, the Director of the Oak Ridge National 
Laboratory. The Red Team recommended ways to get the project back on 
time and on budget. General Klotz has previously told us that all of 
the Red Team's recommendations are being followed, and I think that is 
a big part of the reason that project is moving along nicely.
    We have said the project needs to be completed by 2025 at a cost of 
no more than $6.5 billion, and the design of the nuclear facilities 
needs to be 90 percent before construction of those buildings begins.
    I recently visited Y-12 with Secretary Perry, and saw the work 
being done to build the new Uranium Processing Facility. I understand 
the designs for the two nuclear buildings will be more than 90 percent 
completed by the end of the year, and ready to start construction next 
year.
    The MOX Fuel Fabrication Facility, a major construction project in 
South Carolina, has also raised several concerns because of growing 
costs. Senator Feinstein and I asked for a Red Team review of the MOX 
project in 2015 to get the project back on track.
    The Red Team concluded that the MOX project would cost about twice 
as much each year as an alternative, known as the Dilute and Disposal 
Alternative. The cost to build the MOX facility is over $17 billion. 
Once the MOX facility is built, the cost of the MOX option would be 
$800 million to $1 billion per year. The Dilute and Disposal option 
will require up to $500 million to build the processing lines and will 
cost less than $400 million per year to operate.
    The Red Team also found that the Dilute and Disposal Alternative 
would get the plutonium out of South Carolina faster than the MOX 
project.
    Your budget request proposes termination of the MOX project and 
includes $9 million to build additional facilities for the Dilute and 
Disposal Alternative. I look forward to hearing more from General Klotz 
on this today.
    Finally, you are in the early stages of the design for a new 
Plutonium Facility in New Mexico, the third multi-billion dollar 
project included in the NNSA budget request. I'd like to hear from the 
witnesses how we have incorporated the lessons learned from the Uranium 
Processing Facility and the MOX project into the work for the Plutonium 
Facility to make sure the project can be completed on time and on 
budget.
         effectively maintaining our nuclear weapons stockpile
    Another major part of the NNSA's budget is to maintain our nuclear 
weapons stockpile, and I want to make sure we are spending taxpayer 
dollars effectively.
    The budget request includes $1.7 billion to continue the four 
ongoing life extension programs, which fix or replace components in 
weapons systems to make sure they're safe and reliable.
    On my recent trip to Y-12 with Secretary Perry, I saw work on the 
W76 Life Extension Program when I toured the Beta 2E facility. That 
tour made two things clear to me--(1) we have some very dedicated and 
well trained people working every day to modernize our nuclear weapons 
stockpile, and (2) we need to continue to replace outdated facilities 
at Y-12 and other nuclear weapons production sites.
    During that tour we talked about the innovative contract you used 
to drive cost savings by the contractor. My understanding is that you 
have saved several hundred million dollars since 2014, and some of that 
funding has been reinvested in the site infrastructure.
    I'd like to hear more about that today. I would also like to ask 
you today whether you will be able to meet your production deadlines on 
time and on budget for the life extension programs.
    This work must be done--and it is vital that it be properly 
managed.
                      supporting our nuclear navy
    Naval Reactors is responsible for all aspects of nuclear power for 
our submarines and aircraft carriers.
    Naval Reactors has a lot on their plate right now--they are 
designing a new reactor core for the next class of submarines, 
refueling a prototype reactor, and building a new spent fuel processing 
facility.
    Admiral Caldwell and I had an opportunity talk about the new spent 
fuel processing facility last week. It is a part of the Navy's 
consolidated interim storage for its used nuclear fuel. Interim storage 
of used nuclear fuel from commercial power reactors is a topic Senator 
Feinstein have been working on for a long time.
    The Navy's program shows that it can be done safely and 
effectively, but that does not replace the need for a permanent 
repository at Yucca Mountain. The Navy's used nuclear fuel will still 
go to Yucca Mountain once it is built.
    I look forward to Admiral Caldwell's comments today on the progress 
he's making on his important work, and particularly how he stores his 
used nuclear fuel.
    The NNSA needs to complete a lot if important work, and this work 
is going to require good planning and effective oversight.
    I look forward to working with the NNSA as we begin putting 
together our Energy and Water Appropriations bill for fiscal year 2018, 
and before I turn to Senator Feinstein, I'd like to take a moment to 
recognize General Klotz's leadership during such an important time for 
the NNSA. Over the last 3 years, we have worked together to modernize 
our nuclear weapons stockpile and make sure we have the facilities and 
people we need to keep our weapons safe, secure, and effective. Thank 
you for your service.
    Senator Alexander. I will now recognize Senator Feinstein 
for her opening statement and then the other Senators for 
theirs and Senator Udall and Senator Merkley for their opening 
statements.

                 STATEMENT OF SENATOR DIANNE FEINSTEIN

    Senator Feinstein. Thank you so much, Mr. Chairman. I think 
you know what a pleasure it is for me to work with you and this 
is the first time I have ever taken notes from a chairman's 
opening statement. So thank you for your words which I think 
laid out a very interesting program for me and I hope for you. 
We have to solve the MOX problem. I look at this as number one. 
And I look at the fact that to do nothing is to take on a 
horrendous additional cost that is really not necessary to do. 
So I hope that will be our number one project.

                        NUCLEAR NONPROLIFERATION

    While the NNSA's request is an 8 percent increase over all, 
it cuts the nonproliferation program by 5 percent from last 
year. And this is part of a long and troubling trend. Since 
2010 when the Senate approved New Start, the weapon program 
budget has increased a staggering $3.8 billion. In that same 
time, the nonproliferation program has seen a $343 million 
decrease.

                            NUCLEAR WEAPONS

    In 2010 when I was chairman of this subcommittee, Mr. 
Chairman, you and I agreed with Senators Inouye and Cochran to 
modernize our nuclear infrastructure in exchange for a smaller 
nuclear arsenal. We have held up our end of the bargain. Since 
that time, this subcommittee has appropriated $55 billion for 
weapons. That is 98 percent of the funds requested. That is a 
pretty good record.
    Now the President is requesting a full $1 billion increase 
over the amount originally projected when New Start was signed. 
And that is $578 million above a plan just outlined last year. 
The CBO (Congressional Budget Office) estimates it will cost 
$400 billion over the next decade to modernize our nuclear 
arsenal. $138 billion would need to be appropriated by our 
subcommittee for the NNSA. And General, if that is wrong, 
please tell me.
    I agree we need safe and modern facilities for workers and 
we need robust scientific capabilities so we do not have to 
test our nuclear weapons, but the biggest area of increase in 
this budget is for warhead modernization, $404 million in 
total. That includes $138 million in cost overruns for the B61 
and W88 warheads. The biggest single increase in this budget 
request is for the long-range standoff weapon, the LRSO (Long 
Range Standoff) warhead life extension program. That is an 
eyepopping $179 million increase for a total of $400 million. 
And this is just a down payment on the $8.6 billion this 
warhead--warhead alone--will eventually cost us. The $8.6 
billion for just the warhead alone. The missile itself will 
cost another $10 billion or more in the Department of Defense.
    And I was very pleased to have a chance to discuss this in 
the Defense Subcommittee this morning with General Mattis and 
very pleased that he will take a look at it and take a look 
when they do the Nuclear Posture Review about all of these 
weapons. And I very much appreciate that.
    So you have got a warhead at $8.6 billion and a missile at 
$10 billion. All this for a new weapon that is not only 
dangerous, but I believe unnecessary. And I cannot--this is not 
a classified session, so obviously there are things I cannot 
say. Our existing conventional capabilities and the proposed 
B21 stealth bomber fill the same role and do not carry the 
risks of the LRSO. I am not seeing any tough choices being made 
with this budget request. All I see is more money for weapons 
and less money for everything else.
    The NNSA's track record for warheads and new facilities 
does not inspire confidence, rather their history of rising 
costs and missed schedule suggests that even more money will be 
required than currently projected. So where does it end? How 
much is enough? All this new spending for weapons while the 
nonproliferation program is cut by $90 million. Troublemaking 
by Russia, the rise of the Islamic State, and nuclear 
provocation by North Korea tell me now is not the time to let 
down on nuclear security.

                        NUCLEAR NONPROLIFERATION

    The nonproliferation program has been wildly successful in 
reducing the dangers of nuclear terrorism. For example, through 
2016 the program reduced nuclear dangers around the world by 
removing more than 6,100 kilograms of plutonium and highly 
enriched uranium, securing 2,100 buildings containing high 
priority radioactive sources such as cesium and cobalt that can 
be used in a dirty bomb, converting or shutting down 97 
reactors that use highly enriched uranium, deploying 740 fixed 
and mobile radiation detection systems at border crossings, 
ports, and internal locations in 59 different countries. And 
there is more to do.
    NNSA is implementing a cost sharing program to spur the 
replacement of medical devices that use radioactive sources 
with those that do not. In California, we have more than 100 
blood irradiation devices that use highly radioactive cesium 
137. And there are 32 devices in New York City where there is 
high interest in this program. The program is poised to work in 
20 cities around the United States. In fact, NNSA tells my 
staff that there is not enough money to meet the interest in 
this program by hospitals and other medical facilities. So we 
build, spend billions on warheads and new missiles, and we 
cannot handle our waste. And this becomes a more and more 
dramatic fact for me every day.
    You know, it is not just 87 sites around the country with 
nuclear waste. It is also some 20 cities where there is not 
enough money to do what needs to be done at hospitals and 
medical facilities.

                            NUCLEAR WEAPONS

    So we have an opportunity to reduce the danger of nuclear 
terrorism right here at home. And I think to an extent we 
sacrifice our real security needs for more warheads that we do 
not need. I wrote an op-ed a while ago and at the time I wrote 
it, I did not really realize how true this is. And that is that 
there is no limited nuclear war. And yet we build these things. 
We store these things. We have a big hedge of these things 
which is not necessary. And it is like, I do not know, almost a 
cabal that there is nothing you can do about it.
    I mean, I have sat on this committee for how many years, 
16, maybe more. And I cannot believe it that it seems I do not 
know what it is, but my understanding that all of this is for a 
deterrent that nobody expects ever to use this. Somehow, I am 
coming not to believe that--I must say that--because of the 
amount of money and the kind of weapons.

                             NUCLEAR WASTE

    So I look forward to discussing this issue. I have been 
patient for a long time on trying to resolve the nuclear waste 
program and I have not gotten anywhere. Either the House blocks 
it because of Yucca or the NEI (Nuclear Energy Institute) 
blocks a waste bill for reasons I do not understand. But one of 
these days we are going to regret, I think, not doing the right 
thing for the people to see that everybody is protected from 
radioactivity.
    So I thank you. I will do my best this year.
    Senator Alexander. You always do, Senator Feinstein. Thank 
you for your comments.
    And Senator Merkley.

                   STATEMENT OF SENATOR JEFF MERKLEY

    Senator Merkley. Thank you, Mr. Chairman.
    We are going to invest considerable sums, both in the 
modification of our nuclear warheads and the strategies that we 
have for delivering them in the Triad. And so I am simply 
pleased to be here to hear from our experts and I try to gain a 
kind of more up to date understanding of both the impact on 
strategy and the impact on deterrence and whether and what is 
needed in terms of being a good steward of the citizens' funds. 
Thank you.
    Senator Alexander. Thank you, Senator Merkley, and thank 
you for being here.
    Senator Udall.

                     STATEMENT OF SENATOR TOM UDALL

    Senator Udall. Thank you, Chairman Alexander, and I will 
just be very brief here.

                          NNSA BUDGET REQUEST

    But General, thank you to all the witnesses here. And 
General Klotz, your team has put together a good starting point 
for the NNSA budget that will help protect the important 
stockpile stewardship mission. As an initial matter, I want to 
say I strongly support the funding in the budget for the new 
NNSA Albuquerque Complex Building. I know you are very familiar 
with the need for this facility and I know it will work. And I 
will work with this subcommittee to provide the $98.5 million 
of necessary funds for that.

              LOS ALAMOS AND SANDIA NATIONAL LABORATORIES

    In addition to that project, Los Alamos and Sandia National 
Labs are both key sites for NNSA's mission and current budget. 
In April of this year, the GAO (Government Accounting Office) 
concluded in a report that ``estimated budgets may not be 
sufficient to fully execute program plans and that NNSA may 
need to increase budget estimates.''
    One of the possible drivers of future costs is the 
plutonium mission as you well know. There is currently an 
analysis of alternatives ongoing for the plutonium mission at 
Los Alamos, so I understand this analysis is expected to be 
complete sometime this summer. We look forward to that and to 
continue the discussion with you. As you also know, the life 
extension programs are important to keep on track and to keep 
on budget. And they have been, I think, have been doing a good 
job on that.

                         NUCLEAR SURVIVABILITY

    This budget also includes a considerable increase for 
nuclear survivability. The additional funds will support 
testing at Sandia by the Z machine and the Mighty Thor 
Accelerator, which will reach pressures found at the core of 
the Earth and will also support initial development of the 
trusted strategic radiation hardened microelectronics 
capability. The microsystems and engineering sciences 
applications complex at Sandia is currently the only trusted 
facility for microelectronics and it is being refurbished to 
operate until 2025.
    So we look forward to asking you some questions, but I just 
wanted to make a couple of those points as a brief opening. 
Thank you, Chairman Alexander, very much.
    Senator Alexander. Thank you, Senator Udall.
    And General Klotz.

         SUMMARY STATEMENT OF LIEUTENANT GENERAL FRANK G. KLOTZ

    General Klotz. Well, thank you Chairman Alexander, Ranking 
Member Feinstein, and members of the subcommittee. Thank you 
for the opportunity to present the President's fiscal year 2018 
budget request for the Department of Energy's National Nuclear 
Security Administration. We provided the subcommittee with a 
written statement and respectfully request that it be submitted 
for the record.

                 NNSA'S FISCAL YEAR 2018 BUDGET REQUEST

    We value this committee's very strong support for the 
nuclear security mission and more importantly for the people 
and the organizations that are responsible for executing it. 
Our budget request which comprises approximately half of DOE's 
(Department of Energy) budget is $13.9 billion. This represents 
an increase, as you have already said, Sir, of $1 billion or 
7.8 percent over the fiscal year 2017 Omnibus level.
    This budget request demonstrates the Administration's 
strong commitment to NNSA's enduring and diverse missions: 
maintaining the safety, security, reliability, and 
effectiveness of the nuclear weapons stockpile; reducing the 
threat of nuclear proliferation and nuclear terrorism around 
the world; and providing naval nuclear propulsion to the U.S. 
Navy's fleet of aircraft carriers and submarines.
    The budget materials we have provided to the Congress 
describe NNSA's major accomplishments in fiscal year 2016 as 
well as the underlying rationale for our budget proposal for 
fiscal year 2018. Let me just briefly highlight a few points 
here.

                            NUCLEAR WEAPONS

    This budget request is vital to ensuring that U.S. nuclear 
forces are modern, robust, flexible, resilient, ready, and 
appropriately tailored to deter 21st century threats and to 
reassure our allies. NNSA's fiscal year 2018 budget request for 
the weapons activity appropriation is $10.2 billion, an 
increase of nearly $1 billion to 10.8 percent over the fiscal 
year 2017 Omnibus level. This increase is needed both to meet 
our current life extension program commitments and to modernize 
our research and production infrastructure so we are positioned 
to address future requirements and challenges.
    The budget request will enable NNSA to meet its major 
program objectives including beginning construction of the main 
process building and the salvage and accountability building at 
the Y-12 Uranium Processing Facility in Oak Ridge, Tennessee, 
and also restoring the Nation's capability to manufacture 
plutonium pits on the timeline required to meet future 
stockpile needs.

                    DEFENSE NUCLEAR NONPROLIFERATION

    The fiscal year 2018 budget request includes $1.8 billion 
for defense nuclear nonproliferation account which is 
consistent with the funding level in the fiscal year 2017 
Omnibus. And I look forward to sort of peeling back the onion a 
bit as to how we got to those numbers. This appropriation 
continues NNSA's critical and far reaching mission to prevent, 
counter, and respond to nuclear threats.

                             NAVAL REACTORS

    The request for our third appropriations, the Naval 
Reactors Program, is $1.48 billion. Now I know Admiral Caldwell 
will say more about this in detail, but let me just say this 
represents an increase of $60 million or 4.2 percent above the 
fiscal year 2017 Omnibus level. Not only does the requested 
funding support today's operational fleet, it also enables 
Naval Reactors to deliver tomorrow's fleet by funding three 
national priority projects: developing the COLUMBIA-class 
reactor plant, refueling a research and training reactor in 
upstate New York, and building a new spent fuel handling 
facility in Idaho.

                      IMPROVING BUSINESS PRACTICES

    As NNSA executes our three vital missions, we are mindful 
of our obligations to continually improve our business 
practices and to be responsible stewards of the resources the 
Congress and the American people have entrusted to us. NNSA is 
committed to encouraging competition and streamlining its major 
acquisition processes. Recent competitions for management and 
operations contracts have generated extraordinary unprecedented 
interest from industry and academic institutions validating the 
acquisition and project management improvements that we have 
instituted over the past 5 years.
    Our budget request for Federal salaries and expenses, the 
fourth of our four major appropriations accounts, is $418 
million, an increase of $31 million or roughly 8 percent over 
the fiscal year 2017 Omnibus level. This request supports 
recruiting, training, and equally important, retaining the 
highly skilled workforce essential to achieving success in 
technically complex twenty-first century national security 
missions. Since 2010, NNSA's program funding has increased 28 
percent while our staffing over that same period of time has 
been reduced by 17 percent. The fiscal year 2018 budget request 
supports a very modest increase of 25 full-time equivalent 
employees over the current cap of 1,690 FTEs (full-time 
equivalent).
    In closing, our fiscal year 2018 budget request reflects 
NNSA's motto, mission first, people always. It accounts for the 
significant tempo of operations at NNSA which in many ways have 
reached a level unseen over the past two decades. It includes 
long overdue investments to repair and replace aging 
infrastructure at our national laboratories and production 
plants and it provides modern and more efficient workspace for 
a highly talented scientific, engineering, and professional 
workforce.
    Again, thank you for the opportunity to appear before you 
today and I look forward to responding to your questions.
    [The statement follows:]
        Prepared Statement of Lieutenant General Frank G. Klotz
    Chairman Alexander, Ranking Member Feinstein, and Members of the 
Subcommittee, thank you for the opportunity to present the President's 
fiscal year 2018 budget request for the Department of Energy's (DOE) 
National Nuclear Security Administration (NNSA). The Committee's strong 
support for the nuclear security mission and for the people and 
organizations that are responsible for executing it is deeply 
appreciated.
    The President's fiscal year 2018 budget request for NNSA is $13.9 
billion, an increase of $1.0 billion, or 7.8 percent over the fiscal 
year 2017 Omnibus level. The request represents approximately 50 
percent of DOE's total budget and 68 percent of DOE's 050 budget.
    NNSA's diverse missions are critical to the national security of 
the United States: maintaining the safety, security, reliability, and 
effectiveness of the nuclear weapons stockpile; reducing the threat of 
nuclear proliferation and nuclear terrorism around the world; and 
providing nuclear propulsion for the U.S. Navy's fleet of aircraft 
carriers and submarines. This budget request demonstrates the 
Administration's strong support for NNSA and is vital to ensuring that 
U.S. nuclear forces are modern, robust, flexible, resilient, ready, and 
appropriately tailored to deter 21st-century threats and reassure 
America's allies.
    NNSA's activities are accomplished through the expertise, 
innovative spirit, and hard work of both its Federal and its Management 
and Operating (M&O) contractor employees. NNSA must continue to support 
these highly-talented, dedicated men and women as they carry out 
complex and challenging responsibilities. In particular, it is 
imperative that NNSA modernize its scientific, technical, and 
engineering capabilities, as well as its infrastructure, in order to 
provide a safe, modern, and more efficient workspace for its workforce. 
In doing so, NNSA is mindful of its obligation to continually improve 
its business practices and to be responsible stewards of the resources 
that Congress and the American people have entrusted to the agency.
    The fiscal year 2018 budget request also reflects the close working 
partnership between NNSA, the Department of Defense (DoD), the 
Department of Homeland Security (DHS), the State Department, the 
Intelligence Community, and other Federal departments and agencies. 
NNSA works closely with DoD to meet military requirements, support the 
Nation's nuclear deterrent, and modernize the nuclear security 
enterprise. NNSA also collaborates with a range of Federal agencies to 
prevent, counter, and respond to nuclear proliferation and nuclear 
terrorism.
                    weapons activities appropriation
    For the Weapons Activities account, the fiscal year 2018 budget 
request is $10.2 billion, an increase of nearly $1 billion, or 10.8 
percent over the fiscal year 2017 Omnibus level. Programs funded in 
this account support the Nation's current and future defense posture 
and its attendant nationwide infrastructure of science, technology, and 
engineering capabilities. Weapons Activities provide for the 
maintenance and refurbishment of nuclear weapons to maintain their 
safety, security, and reliability; investments in scientific, 
engineering, and manufacturing capabilities to certify the enduring 
nuclear weapons stockpile; and the fabrication of nuclear weapon 
components. Weapons Activities also includes investments to make the 
NNSA nuclear complex more cost effective and more responsive to 
unanticipated challenges or emerging threats.
Maintaining the Stockpile
    This year, the work of the science-based Stockpile Stewardship 
Program (SSP) allowed the Secretaries of Energy and Defense to certify 
to the President for the 21st consecutive year that the U.S. nuclear 
weapons stockpile remains safe, secure, and reliable without the need 
for nuclear explosive testing. This remarkable scientific achievement 
is made possible each year by investments in state-of-the-art 
diagnostic tools, high performance computing platforms, modern 
facilities, and most importantly by NNSA's world-class scientists, 
engineers, and technicians.
    For Directed Stockpile Work (DSW), the fiscal year 2018 budget 
request is $4.0 billion, an increase of $669 million, or 20.2 percent 
over the fiscal year 2017 Omnibus level.
    The major warhead Life Extension Programs (LEPs) are a fundamental 
part of this account:
  --W76-1 LEP: The $224 million requested for the W76-1 LEP directly 
        supports the sea- based leg of the nuclear triad and will keep 
        the LEP on schedule and on budget to complete production in 
        fiscal year 2019.
  --B61-12 LEP: NNSA continues to make progress on the B61-12 LEP, 
        which will consolidate four variants of the B61 gravity bomb 
        and improve the safety and security of the oldest weapon system 
        in the U.S. nuclear arsenal. In June 2016, NNSA authorized the 
        program to transition into the Production Engineering Phase 
        (Phase 6.4). With the $788.6 million requested, NNSA will 
        remain on schedule to deliver the First Production Unit (FPU) 
        of the B61-12 in fiscal year 2020. NNSA is responsible for 
        refurbishing the nuclear explosives package and updating the 
        electronics for this weapon, while the Air Force will provide 
        the tail kit assembly under a separate acquisition program. 
        When fielded, the B61-12 gravity bomb will support both Air 
        Force long-range nuclear-capable bombers and dual-capable 
        fighter aircraft, bolstering central deterrence for the United 
        States while also providing extended deterrence to America's 
        allies and partners.
  --W88 Alteration (Alt) 370 Program: In February 2017, NNSA began the 
        Production Engineering Phase (Phase 6.4) for the W88 Alt 370 
        Program, including conventional high explosives refresh 
        activities. The budget request for this program, which also 
        supports the sea-based leg of the nuclear triad, includes $332 
        million in fiscal year 2018, an increase of $51 million, or 
        18.2 percent over the fiscal year 2017 Omnibus level, to 
        support the scheduled FPU in fiscal year 2020.
  --W80-4 LEP: The fiscal year 2018 budget request is $399 million, an 
        increase of $179 million, or 81.2 percent over the fiscal year 
        2017 Omnibus level. This funding supports a significant 
        increase in program activity through the Design Definition and 
        Cost Study Phase (Phase 6.2A), driving toward a fiscal year 
        2025 FPU in support of the Air Force's Long Range Stand-Off 
        (LRSO) cruise missile program.
    Also within DSW, the fiscal year 2018 budget request includes $1.5 
billion for Stockpile Systems and Stockpile Services. These programs 
sustain the stockpile in accordance with the Nuclear Weapon Stockpile 
Plan by producing and replacing limited-life components such as neutron 
generators and gas transfer systems; conducting maintenance, 
surveillance, and evaluations to assess weapon reliability; detecting 
and anticipating potential weapon issues; and compiling and analyzing 
information during the Annual Assessment process.
    NNSA continues to make progress on the Joint Technology 
Demonstrator (JTD) program, a strategic collaboration between the 
United States and the United Kingdom under the Mutual Defense 
Agreement. This program is intended to reduce technological risk and 
provide relevant data for future program activities. JTD's focus is on 
technologies and process improvements that can improve weapon 
affordability and enhance weapon safety and security.
    Within DSW, the fiscal year 2018 budget request also includes $695 
million for Strategic Materials. This funding is necessary to maintain 
NNSA's ability to produce the nuclear and other strategic materials 
associated with nuclear weapons as well as refurbish and manufacture 
components made from these materials. The program includes Uranium 
Sustainment, Plutonium Sustainment, Tritium Sustainment, Domestic 
Uranium Enrichment (DUE), and other strategic materials, such as 
lithium.
    Funding for Uranium Sustainment will permit operations with 
enriched uranium in Building 9212, a Manhattan Project-era production 
facility at the Y-12 National Security Complex in Oak Ridge, Tennessee, 
to end in fiscal year 2025, and allow the bulk of this obsolete 
building to shut down.
    Plutonium Sustainment funds the replacement and refurbishment of 
equipment and critical skills needed to meet the pit production 
requirements. Increases are included to fabricate several W87 
developmental pits. Investments to replace pit production equipment 
which has reached the end of its useful life and install equipment to 
increase production capacity are also continued.
    Tritium Sustainment ensures the Nation's capacity to provide the 
tritium for national security requirements by irradiating Tritium 
Producing Burnable Absorber Rods in designated Tennessee Valley 
Authority nuclear power plants and by recovering and recycling tritium 
from gas transfer systems returned from the stockpile.
    The DUE program continues its efforts to ensure that NNSA has the 
necessary supplies of enriched uranium for a variety of national 
security needs. Funding increases are included in this year's request 
to begin down-blending available stocks of unobligated highly enriched 
uranium (HEU) for use in tritium production, which delays the need date 
for a DUE capability until at least 2038-2041.
    The fiscal year 2018 budget request also includes $52 million for 
Weapons Dismantlement and Disposition to allow NNSA to remain on track 
with the goal of dismantling all weapons retired prior to fiscal year 
2009 by the end of fiscal year 2022.
    For Research, Development, Test, and Evaluation (RDT&E), the fiscal 
year 2018 budget request is $2 billion, an increase of $186 million or 
10.1 percent over the fiscal year 2017 Omnibus level.
    Increases for the Science Program ($487.5 million, an increase of 
$51 million) provide additional funding for the Advanced Sources and 
Detectors Major Item of Equipment in support of the Enhanced 
Capabilities for Subcritical Experiments (ECSE) effort.
    The Engineering Program ($193.1 million, an increase of $61 
million) sustains NNSA's trusted microsystems capability and further 
develops the Stockpile Responsiveness Program (SRP). NNSA is requesting 
$40 million in fiscal year 2018 for SRP to identify, sustain, enhance, 
integrate, and continually exercise the capabilities required to 
conceptualize, study, design, develop, engineer, certify, produce, and 
deploy nuclear weapons. These activities are necessary to ensure the 
U.S. nuclear deterrent remains safe, secure, reliable, credible, and 
responsive. The funding will support the creation of design study teams 
to explore responsiveness concepts as well as development of 
capabilities for accelerating the qualification and production cycle.
    The Inertial Confinement Fusion Ignition and High Yield Program has 
spearheaded ongoing improvements in management and operational 
efficiencies at NNSA's major high energy density (HED) facilities, 
including the National Ignition Facility (NIF) at LLNL in California, 
the Z-Machine at Sandia National Laboratories in New Mexico, and the 
OMEGA laser facility at the University of Rochester in New York. In 
fiscal year 2016, NIF exceeded the goal of 400 data-acquiring shots 
(417), more than double the number of shots executed in fiscal year 
2014 (191) in support of the SSP. The improved shot rates have 
accelerated progress towards the achievement and application of multi-
megajoule fusion yields, investigating material behaviors in conditions 
presently inaccessible via other experimental techniques, and improving 
the predictive capability of NNSA's science and engineering models in 
high-pressure, high-energy, high-density regimes.
    The RDT&E request for fiscal year 2018 includes $734 million for 
the Advanced Simulation and Computing (ASC) Program. NNSA is taking 
major steps in high performance computing (HPC) to deliver on its 
missions by deploying increasingly powerful computational capabilities 
to both Los Alamos National Laboratory (LANL) and Lawrence Livermore 
National Laboratory (LLNL). In the summer of 2017--Trinity--NNSA's next 
generation high performance computer, will become fully available for 
classified use at LANL. This computer will be about 30 times more 
powerful than the Cielo super computer it is replacing. The Sierra HPC 
system will be deployed at LLNL starting this year; it is projected to 
provide four to six times the sustained performance of LLNL's current 
HPC system, Sequoia.
    The RDT&E request also increases NNSA's contribution to the 
Exascale Computing Initiative (ECI) from $95 million in fiscal year 
2017 to $161 million in the fiscal year 2018 request. The ECI is a 
collaboration with DOE's Office of Science to develop the technology 
needed for exascale-class high performance computing. The increased 
funding will provide for NNSA-specific application development, and 
improve software and hardware technologies for exascale computing in 
order to meet NNSA's needs for future assessments, LEPs, and stockpile 
stewardship. Specifically, exascale computing will provide capabilities 
to improve weapon performance simulation tools and techniques; evaluate 
the safety, security, and effectiveness of the current stockpile; and 
provide support to certify potential advanced surety features for the 
future stockpile.
    NNSA's Secure Transportation Asset (STA) program provides safe, 
secure movement of nuclear weapons, special nuclear material (SNM), and 
weapon components to meet projected DOE, DoD, and other customer 
requirements. The Office of Secure Transportation (OST) has an elite 
workforce performing sensitive and demanding work; OST agents are among 
the most highly trained national security personnel operating within 
the United States. Since fiscal year 2012, STA has repeatedly been 
funded below the Administration's budget requests. This trend increases 
risks and possible production delays to the Mobile Guardian Transporter 
(MGT) and adversely affects OST's ability to recruit and retain agents. 
The fiscal year 2018 budget request of $325.1 million includes an 
increase of $76 million or 30.6 percent over the fiscal year 2017 
Omnibus level to continue asset modernization and workforce capability 
initiatives. These initiatives include: 1) restoration of Federal agent 
strength levels to meet the goal of 370 agents; 2) the Safeguards 
Transporter (SGT) Risk Reduction Initiatives to manage the SGT beyond 
its design life; 3) procurement of long-lead parts and materials for 
the two full scale MGT prototype systems; and 4) deferred facilities 
maintenance and minor construction projects at multiple sites.
Improving Safety, Operations, and Infrastructure
    NNSA's ability to achieve its vital national security missions is 
dependent upon safe and reliable infrastructure. If not appropriately 
addressed, the age and condition of NNSA's infrastructure will put 
NNSA's missions, the safety of its workers, the public, and the 
environment at risk.
    More than half of NNSA's facilities are over 40 years old, and 
roughly 30 percent date back to the Manhattan Project era. The fiscal 
year 2018 budget request for Infrastructure and Operations is $2.8 
billion, a decrease of $5 million, or 0.2 percent below the fiscal year 
2017 Omnibus level. The request actually represents an increase of $195 
million (7.5 percent) after adjusting for the one-time $200 million 
Bannister Federal Complex project funded in fiscal year 2017. This 
funding will help modernize and upgrade antiquated infrastructure and 
address safety and program risks through strategic investments in 
general purpose infrastructure and capabilities that directly support 
NNSA's nuclear weapons and nonproliferation programs.
    In August 2016, NNSA broke ground on the Administrative Support 
Complex at the Pantex nuclear weapons assembly and dismantlement 
facility in Amarillo, Texas. The site's M&O contractor entered into a 
lease agreement for a new office building that a private developer is 
building using third-party financing. This project will allow roughly 
1,000 employees to move out of dilapidated, 1950s-era buildings into a 
modern, energy efficient workspace. It will also eliminate 
approximately $20 million in deferred maintenance at the Pantex site 
and enhance recruitment and retention by improving the quality of the 
work environment. The project will be completed and staff will move 
into the new facility, by spring 2018.
    The fiscal year 2018 budget request further reduces deferred 
maintenance and supports the execution of new recapitalization projects 
to improve the condition and extend the design life of structures, 
capabilities, and systems to meet program demands; decrease overall 
operating costs; and reduce safety, security, environmental, and 
program risk. The request also supports general purpose infrastructure 
and program-specific capabilities through Line Item Construction 
projects. These projects include the Uranium Processing Facility (UPF) 
at Y-12, the Chemistry and Metallurgy Research Replacement (CMRR) 
project at LANL, and the Albuquerque Complex Project.
    One of the most worrisome of the NNSA infrastructure challenges is 
the excess facilities that pose risks to NNSA's workers, the 
environment, and the nuclear security mission. As of the end of fiscal 
year 2016, NNSA had 417 excess facilities, 79 of which were identified 
as high-risk excess facilities, including 58 at the Kansas City 
Bannister Federal Complex. Many of these facilities will ultimately be 
transferred to the DOE Office of Environmental Management (EM) for 
disposition, and the EM fiscal year 2018 budget requests $225 million 
to address high-risk excess facilities at Y-12 and LLNL. In the 
interim, NNSA is focusing on reducing the risk where it can.
    The fiscal year 2018 budget request supports a number of activities 
related to excess facilities. NNSA benefitted enormously from funding 
provided by Congress in fiscal year 2017 for the disposition of the 
Bannister Federal Complex in Kansas City. The disposition project is on 
track, with final pre- transfer activities occurring now.
    The Office of Defense Nuclear Security (DNS) develops and 
implements security programs to protect sensitive nuclear material 
(SNM), people, information, and facilities throughout the nuclear 
security enterprise. The fiscal year 2018 budget request is $687.0 
million, an increase of $1.5 million, or 0.2 percent over the fiscal 
year 2017 Omnibus level that included funding to address immediate 
infrastructure needs at Pantex and Y-12. The request manages risk among 
important competing demands as NNSA continues to face the challenges 
associated with physical security infrastructure that must be 
effectively addressed in the coming years. NNSA is finalizing a 10-Year 
Plan to Recapitalize Physical Security Systems Infrastructure, also 
known as the 10-Year Plan, which identifies and prioritizes the 
replacement and refresh of physical security infrastructure across the 
nuclear security enterprise. Of note, the request includes preliminary 
planning and conceptual design funds for future projects, as outlined 
in the 10-Year Plan, to sustain and recapitalize the Perimeter 
Intrusion Detection and Assessment System (PIDAS) at the Pantex Plant 
and Y-12.
    Information Technology and Cybersecurity enable every facet of the 
NNSA mission. The fiscal year 2018 budget request is $186.7 million, an 
increase of $10 million, or 5.7 percent over the fiscal year 2017 
Omnibus level. This increase will fund much needed improvement to the 
Information Technology and Cybersecurity program, including Continuous 
Diagnostic and Mitigation, Telecommunications Security, infrastructure 
upgrades for the Enterprise Secure Computing Network (ESN), Public Key 
Infrastructure (PKI), Energy Sciences Network program, and an increased 
information technology budget. The cybersecurity program continuously 
monitors enterprise wireless and security technologies to meet a wide 
range of security challenges. In fiscal year 2018, NNSA plans to 
continue the recapitalization of the ESN, modernize the cybersecurity 
infrastructure, implement the Identity Control and Access Management 
project at NNSA Headquarters and site elements, and implement all 
Committee on National Security Systems and PKI capabilities. The 
requested funding increase will allow NNSA to continue working toward a 
comprehensive information technology and cybersecurity program to 
deliver critical information assets securely.
             defense nuclear nonproliferation appropriation
    The fiscal year 2018 budget request for the Defense Nuclear 
Nonproliferation (DNN) account is $1.8 billion, a level consistent with 
the fiscal year 2017 Omnibus level. This appropriation covers NNSA's 
critical and far-reaching nuclear threat reduction activities. DNN 
addresses the entire nuclear threat spectrum by helping to prevent the 
acquisition of nuclear weapons or weapon-usable materials, 
technologies, and expertise; countering efforts to acquire them; and 
responding to possible nuclear and radiological incidents. The fiscal 
year 2018 budget request funds two program mission areas under the DNN 
account: the Defense Nuclear Nonproliferation Program and the Nuclear 
Counterterrorism and Incident Response (NCTIR) Program.
Nonproliferation Efforts
    Working with international partners, the Office of Defense Nuclear 
Nonproliferation removes or eliminates vulnerable nuclear material; 
improves global nuclear security through multilateral and bilateral 
technical exchanges and training workshops; helps prevent the illicit 
trafficking of nuclear and radiological materials; secures domestic and 
international civilian buildings containing high-priority radiological 
material; provides technical reviews of U.S. export license 
applications; conducts export control training sessions for U.S. 
enforcement agencies and international partners; strengthens the IAEA's 
ability to detect and deter nuclear proliferation; advances U.S. 
capabilities to monitor arms control treaties and detect foreign 
nuclear programs; and maintains organizational readiness to respond to 
and mitigate radiological or nuclear incidents worldwide.
    The Material Management and Minimization (M\3\) program provides an 
integrated approach to addressing the risk posed by nuclear materials. 
The fiscal year 2018 budget request is $332.1 million, an increase of 
$44 million or, 15.2 percent over the fiscal year 2017 Omnibus level. 
The request supports the conversion or shut-down of research reactors 
and isotope production facilities that use HEU; acceleration of new, 
non-HEU-based molybdenum-99 production facilities in the United States; 
the removal and disposal of WUNM; and the completion of the lifecycle 
cost estimate and schedule for the dilute and dispose option for 
plutonium disposition.
    The Global Material Security (GMS) program works with partner 
nations to increase the security of vulnerable nuclear and radiological 
materials and improve their ability to detect, interdict, and 
investigate illicit trafficking of these materials. The fiscal year 
2018 budget request for this program is $337.1 million, a decrease of 
$30 million, or 8.2 percent below the fiscal year 2017 Omnibus level.
    The Nonproliferation and Arms Control (NPAC) program develops and 
implements programs to strengthen international nuclear safeguards; 
control the spread of nuclear and dual-use material, equipment, 
technology and expertise; verify nuclear reductions and compliance with 
nonproliferation and arms control treaties and agreements; and address 
other challenges. The fiscal year 2018 budget request for this program 
is $129.7 million, an increase of $5 million, or 4.0 percent over the 
fiscal year 2017 Omnibus level. This increase serves to improve the 
deployment readiness of U.S. nuclear disablement and dismantlement 
verification teams and to enhance export control dual-use license and 
interdiction technical reviews.
    The DNN Research and Development (DNN R&D) program supports 
innovative unilateral and multilateral technical capabilities to 
detect, identify, and characterize foreign nuclear weapons programs, 
illicit diversion of SNM, and nuclear detonations worldwide. The fiscal 
year 2018 budget request for this program is $446.1 million, a decrease 
of $23.7 million, or 5.0 percent below the fiscal year 2017 Omnibus 
level. The decrease in funding reflects a shift of $53 million from R&D 
back to M3 for the U.S. High Performance Research Reactors Program and 
is offset by an increase of $29 million for planned R&D activities.
    Nonproliferation Construction consolidates construction costs for 
DNN projects. The fiscal year 2018 budget request is $279 million, a 
decrease of $56 million, or 16.7 percent below the fiscal year 2017 
Omnibus level. The Administration proposes to terminate the Mixed Oxide 
Fuel Fabrication (MFFF) project and to pursue the dilute and dispose 
option to fulfill the United States' commitment to dispose of 34 metric 
tons of plutonium. If supported by Congress, $270 million would be used 
to achieve an orderly and safe closure of the MFFF. The scope and costs 
will be refined in subsequent budget submissions when the termination 
plan for the MFFF project is approved. In addition, $9 million is 
provided for the Surplus Plutonium Disposition project to support the 
dilute and dispose strategy.
Nuclear Counterterrorism and Counterproliferation
    In fiscal year 2016, the NCTIR Program transitioned to the DNN 
account from the Weapons Activities account to align all NNSA funding 
to prevent, counter, and respond to nuclear proliferation and nuclear 
terrorism under the same appropriations account. The fiscal year 2018 
budget request includes $277.4 million to support the NCTIR Program, an 
increase of $5 million, or 2.0 percent over the fiscal year 2017 
Omnibus level. Within NCTIR, NNSA continues to work domestically and 
internationally to prepare for and improve the Nation's ability to 
respond to radiological or nuclear incidents.
    NNSA's counterterrorism and counterproliferation programs are part 
of broader U.S. Government efforts to assess the threat of nuclear 
terrorism and develop technical countermeasures. The scientific 
knowledge generated under this program ensures NNSA's technical 
expertise on potential nuclear threat devices, including improvised 
nuclear devices (INDs), supports and informs U.S. nuclear security 
policy, and guides nuclear counterterrorism and counterproliferation 
efforts, including interagency nuclear forensics and contingency 
planning.
    NNSA emergency response teams' current equipment is aging, 
resulting in increasing maintenance expenses and imposing increased 
risks to NNSA's ability to perform its emergency response mission. The 
Radiological Assistance Program (RAP) remains the Nation's premier 
first-response resource to assess a radiological incident and advise 
decision-makers on the necessary steps to minimize hazards. To ensure 
that NNSA is able to execute its radiological emergency response 
mission, RAP's equipment must be recapitalized regularly. NNSA is 
acquiring state-of-the-art, secure, deployable communications systems 
that are interoperable with Federal Bureau of Investigation and DoD 
mission partners, ensuring that decision makers receive real-time 
technical recommendations to mitigate nuclear terrorist threats.
    NNSA recently concluded an Analysis of Alternatives (AoA) on the 
Aerial Measuring System (AMS) aircraft. The AMS fleet consists of three 
B200 fixed-wing aircraft with an average age of 33 years and two Bell 
412 helicopters with an average age of 24 years. The current aircraft 
are experiencing reduced mission availability due to increasing 
unscheduled downtime and maintenance. The AoA determined that NNSA 
recapitalization of the aging aircraft fleet is necessary in order to 
provide rapid aerial radiological exposure and contamination 
information to Federal, State, and local officials following an 
accident or incident in order to protect the public and first 
responder's health and safety. NNSA anticipates proposing a 2-year 
replacement schedule starting in fiscal year 2019.
                      naval reactors appropriation
Advancing Naval Nuclear Propulsion
    NNSA provides nuclear propulsion for the U.S. Navy's nuclear-
powered fleet, which is critical to the security of the United States 
and its allies as well as the security of global sea lanes. The Naval 
Reactors Program remains at the forefront of technological developments 
in naval nuclear propulsion. This preeminence derives from advancing 
new technologies and improvements in naval reactor performance, 
ensuring a commanding edge in warfighting capabilities.
    The Naval Reactors fiscal year 2018 budget request is $1.48 
billion, an increase of $60 million, or 4.2 percent above the fiscal 
year 2017 Omnibus level. In addition to supporting today's operational 
fleet, the requested funding will enable Naval Reactors to deliver 
tomorrow's fleet by funding three national priority projects and 
recruiting and retaining a highly skilled workforce. The projects 
include: (1) continuing design and development of the reactor plant for 
the COLUMBIA-Class submarine, which will feature a life-of-ship core 
and electric drive; (2) refueling a Research and Training Reactor in 
New York to facilitate COLUMBIA-Class reactor development efforts and 
provide 20 more years of live reactor-based training for fleet 
operators; and (3) building a new spent fuel handling facility in Idaho 
that will facilitate long term, reliable processing and packaging of 
spent nuclear fuel from aircraft carriers and submarines.
    Naval Reactors has requested funding in fiscal year 2018 to support 
these projects and fund necessary reactor technology development, 
equipment, construction, maintenance, and modernization of critical 
infrastructure and facilities. By employing a small but high-performing 
technical base, the teams at Bettis Atomic Power Laboratory in 
Pittsburgh, Knolls Atomic Power Laboratory and Kesselring Site in 
greater Albany, and the spent nuclear fuel facilities in Idaho can 
perform the research and development, analysis, engineering and testing 
needed to support today's fleet at sea and develop future nuclear-
powered warships. Importantly, the laboratories perform the technical 
evaluations that enable Naval Reactors to thoroughly assess emergent 
issues and deliver timely responses that ensure nuclear safety and 
maximize operational flexibility.
            nnsa federal salaries and expenses appropriation
    The NNSA Federal Salaries and Expenses (FSE) fiscal year 2018 
budget request is $418.6 million, an increase of $31.5 million, or 8.1 
percent over the fiscal year 2017 Omnibus level. The fiscal year 2018 
budget request provides funding for 1,715 full-time equivalents (FTE), 
which includes a 1.9 percent cost of living increase, a 5.5 percent 
increase for benefit escalation, and other support expenses needed to 
meet mission requirements. NNSA is actively engaged in hiring to reach 
that number in a thoughtful and strategic manner. The fiscal year 2018 
budget request for 1,715 FTEs is an increase of 25 above the authorized 
1,690. Since 2010, NNSA's program funding has increased 28 percent, 
while staffing has decreased 17 percent. In fiscal year 2018, NNSA will 
continue efforts to meet current and future workforce needs by 
analyzing job requirements to meet evolving missions, including 
completion of a study by the Office of Personnel Management in support 
of the Reform of Government Initiative. Initial results from four 
program offices and one field office indicate the need for a 20 percent 
increase in Federal staff.
                        management & performance
    Since 2011, NNSA has delivered approximately $1.4 billion in 
projects, a significant portion of NNSAs total project portfolio, 8 
percent under original budget. This past February, the High Explosive 
Pressing Facility at Pantex achieved CD-4 and was completed $25 million 
under the approved baseline. NNSA is committed to encouraging 
competition and increasing the universe of qualified contractors by 
streamlining its major acquisition processes. NNSA will continue to 
focus on delivering timely, best-value acquisition solutions for all of 
its programs and projects, using a tailored approach to contract 
structures and incentives that is appropriate for the special missions 
and risks at each site. NNSA's Office of Acquisition and Project 
Management (APM) is leading continued improvement in contract and 
project management practices and NNSA's effort to institute rigorous 
analyses of alternatives; provide clear lines of authority and 
accountability for program and project managers; improve cost and 
schedule performance; and ensure Federal Project Directors and 
Contracting Officers with the appropriate skill mix and professional 
certifications are managing NNSA's work.
                               conclusion
    NNSA's diverse missions are crucial to the security of the United 
States, the defense of its allies and partners, and global stability 
writ large. The U.S. nuclear deterrent has been the cornerstone of 
America's national security since the beginning of the nuclear age, and 
NNSA has unique responsibilities to ensure its continued safety, 
security, reliability, and effectiveness. Likewise, NNSA's nuclear 
nonproliferation and nuclear counterterrorism activities are essential 
to promoting the peaceful use of nuclear energy and preventing 
malicious use of nuclear and radiological materials around the world. 
Finally, NNSA's support to the U.S. Navy allows the United States to 
defend its interests abroad and protect the world's commercial shipping 
lanes. Each of these critical missions depends upon NNSA's 
capabilities, facilities, infrastructure, and world-class workforce.

    Senator Alexander. Admiral Caldwell.
STATEMENT OF JAMES F. CALDWELL JR, UNITED STATES NAVY, 
            DEPUTY ADMINISTRATOR FOR NAVAL REACTORS, 
            NATIONAL NUCLEAR SECURITY ADMINISTRATION, 
            DEPARTMENT OF ENERGY
    Admiral Caldwell. Thank you, Mr. Chairman, Chairman 
Alexander, Ranking Member Feinstein, distinguished members of 
this subcommittee. Thank you for the opportunity to testify 
before you today.

                             NAVAL REACTORS

    I am grateful for the tremendous support that this 
subcommittee has shown Naval Reactors. Your support is 
essential to my program's success.
    Since I last testified before this subcommittee, U.S. 
nuclear power warships, 10 aircraft carriers, 14 ballistic 
missile submarines, 57 attack submarines, and 4 guided missile 
submarines steamed more than two million miles in support of 
national security missions. We have 101 reactors across our 
program that operated safely and effectively for another year. 
This is a true testament to the sailors that operate these 
propulsion plants and the strong technical base that supports 
them.
    Nuclear power is a key enabler to the success of our 
nation's Navy in both the missions it supports and the 
capability advantage it allows over potential adversaries. 
Nuclear powered submarines and aircraft carriers make up over 
45 percent of the Navy's major combatants. And as we move 
forward, it is vital to our national security to continue to 
build and improve upon these incredible assets.
    Last year marked the start of an ongoing program that 
delivers two Virginia-class submarines annually. Recently, the 
Navy commissioned the attack submarine Illinois, delivered the 
pre-commissioning unit, Washington, and christened the pre-
commissioning unit Colorado and Indiana. And just this last 
month we delivered the Gerald Ford to the Navy, the first ship 
in our newest class of aircraft carriers. Having witnessed the 
Ford propulsion plant testing at sea firsthand, I am happy to 
report that in terms of propulsion capability Ford met the high 
speed of our Nimitz-Class carriers and delivered major 
increases in electrical power and core energy with half of the 
manning of the reactor department on Nimitz.
    We continue to support a strong nuclear shipbuilding 
capability, 12 submarines in various phases of construction, 
and the construction of the second aircraft carrier in the 
Ford-class, John F. Kennedy, is underway with the third ship of 
the class, the Enterprise, set to start full scale construction 
in 2018.
    Nuclear power continues to play an important role in our 
military's strategic deterrence mission. Our ballistic missile 
submarine force achieved 60 years of peacekeeping through 
continuous at sea strategic deterrence. This milestone occurs 
as the nation is preparing to recapitalize the ballistic 
missile submarine force through the procurement of Columbia-
class. It is a submarine that will enable undersea strategic 
deterrence through the 2080s.
    Over the past year our technical base of scientists, 
engineers, and logisticians were vital to the continued 
operation of the Navy's nuclear fleet. This core team directly 
supported the Navy's ability to maintain a forward deployed 
carrier, 3 battlegroup deployments, 33 submarine deployments, 
and 32 ballistic missile deterrent patrols. It is another 
strong testament to our design and technical base that we 
achieved a milestone when USS Helena made submarine history by 
traveling over one million nautical miles on a single reactor 
core. Our progress and mandatory oversight of the safe 
operation of the fleet is only possible through the steady 
support of this subcommittee.

            NAVAL REACTORS' FISCAL YEAR 2018 BUDGET REQUEST

    Naval Reactors' request for fiscal year 2018 allows us to 
continue this work. The funding request is for $1.48 billion. 
It is an increase of 4 percent over the fiscal year 2017 
enacted funding level. The request enables us to deliver 
tomorrow's fleet by recapitalizing critical program facilities 
and infrastructure, performing research and development, and 
funding three national priority projects which are: continuing 
to design the new propulsion plant for the Columbia SSBN which 
will feature a life of the ship core and electric drive; 
refueling a research and training reactor in New York to 
facilitate Columbia-class SSBN reactor manufacturing 
development efforts and provide another 20 years of operator 
training; and building a new Spent Fuel Handling Facility in 
Idaho that will facilitate long term, reliable processing and 
packaging of spent nuclear fuel from aircraft carriers and 
submarines.
    The budget request supported by sustained and predictable 
funding levels also permits Naval Reactors to support today's 
operational fleet by recruiting and retaining talented 
engineers, technicians, and scientists that make up my 
technical base. This technical base includes world class 
laboratory and reactor facilities that require selected 
maintenance and modernization investments to ensure their 
readiness for 24/7 support of fleet operations and keep us 
technologically ahead of adversaries.
    Mr. Chairman, our fiscal year 2018 budget request is part 
of a closely coordinated Department of Navy and Department of 
Energy budget that supports both my responsibility to regulate 
the safe and effective operation of the nuclear fleet and Naval 
Reactors' roles in both Departments to support the security of 
our Nation today and into the future. We will accomplish this 
with our industry partners while maintaining high standards for 
safety and environmental stewardship.
    Again, thank you for the longstanding support of this 
subcommittee and I look forward to discussing my program with 
you.
    [The statement follows:]
            Prepared Statement of Admiral James F. Caldwell
    Since USS Nautilus (SSN 571) first signaled ``Underway on nuclear 
power'' in 1955, our nuclear powered ships have made extraordinary 
contributions to our national defense. From the start of the Cold War 
to today's multi-threat environment, our nuclear navy ensures continued 
dominance of American seapower. Over 45 percent of the Navy's major 
combatants are nuclear powered (10 aircraft carriers, 14 ballistic 
missile submarines, 57 attack submarines, and 4 guided missile 
submarines) capitalizing on the mobility, flexibility, and endurance of 
nuclear power that enables the Navy to meet its global mission.
    Over the past year, the Navy, with Naval Reactors support, deployed 
33 submarines and conducted 32 strategic deterrent patrols. In 
addition, at any given time, there were always at least 56 of 75 
submarines deployed or ready to deploy within a few days. Our carriers, 
USS John C. Stennis (CVN 74), USS Harry S. Truman (CVN 75), and USS 
Dwight D. Eisenhower (CVN 79), completed successful deployments, and 
the USS Ronald Reagan (CVN 76) stood ready as the forward-deployed 
carrier in Japan. We also saw the christening of the attack submarines 
PCU Colorado (SSN 788) and PCU Indiana (SSN 789), our fifteenth and 
sixteenth Virginia-class submarines. We have also added another attack 
submarine to our force by commissioning USS Illinois (SSN 786), and the 
Navy's newest submarine USS Washington (SSN 787) was delivered. And 
last, as a testament to the ability of our design and technical base, 
USS Helena (SSN 725) made submarine history by being the first 
submarine to travel 1 million nautical miles on a single reactor core.
    Recently, I participated in sea-trials on the first Ford-Class 
Aircraft Carrier, the Gerald R. Ford (CVN 78) which was delivered on 
May 31. This ship has the first new design aircraft carrier propulsion 
plant in 40 years, and I'm happy to report that in terms of propulsion 
capability, Ford met the high speed of our Nimitz-Class ships and 
delivered major increases in electrical power and core energy with half 
the manning in the reactor department. While we have worked through 
several challenges testing and operating the first-of-class propulsion 
and electrical generation and distribution system on the ship, the fact 
that these problems were safely and efficiently resolved is a testament 
to the technical skills and hard work of the nuclear shipbuilding 
design and industrial base, as well as the skilled Sailors operating 
this equipment. This historic milestone represents the culmination of 
almost 20 years of dedicated and sustained effort by Naval Reactors and 
its field activities, our Department of Energy laboratories, nuclear 
industrial base suppliers, the Navy design team, and the nuclear 
shipbuilders.
    In addition to supporting these nuclear powered combatants, Naval 
Reactors has safely maintained and operated two nuclear powered land-
based prototypes--both over 39 years old--to conduct research, 
development, and training, as well as two Moored Training Ships--both 
over 53 years old--the oldest operating pressurized water reactors in 
the world. These operational reactors provide highly qualified 
operators to the nuclear fleet, and today our nuclear fleet is fully 
manned.
    The strong support of this subcommittee last year enabled safe 
operation of the fleet, Naval Reactors mandatory oversight, and 
continued progress on key projects. Naval Reactors' budget request for 
fiscal year 2018 is $1.48 billion, an increase of 60 million dollars, 
or 4 percent, over the fiscal year 2017 enacted funding level. In 
addition to supporting today's operational fleet, the requested funding 
will enable Naval Reactors to deliver tomorrow's fleet by continuing 
funding for three national priority projects and recruiting and 
retaining a unique, highly skilled work force committed to the Navy and 
the Nation. The projects are:
  --Continuing to design the new propulsion plant for the Columbia-
        class ballistic missile submarine, which will feature a life-
        of-ship core and electric drive;
  --Refueling a research and training reactor in New York, to 
        facilitate Columbia-class reactor development efforts and 
        provide 20 more years of live reactor based training for the 
        fleet operators; and
  --Building a new Spent Fuel Handling Facility in Idaho that will 
        facilitate long term, reliable processing and packaging of 
        spent nuclear fuel from aircraft carriers and submarines.
    We are at our peak in design efforts supporting the new propulsion 
plant for the Columbia-class SSBN--the Navy's number one acquisition 
priority. Providing unparalleled stealth, endurance, and mobility, our 
ballistic missile submarine force has delivered more than 60 years of 
continuous at-sea deterrence, and it continues to be the most 
survivable leg of the nuclear triad. Columbia-class SSBN activity this 
year includes reactor plant design and component development to support 
procurement of long lead reactor plant components in fiscal year 2019. 
The funding requested ensures we maintain progress with this plan and 
alignment with the Navy as the program moves toward construction start 
in fiscal year 2021.
    Supporting both the Columbia-class effort and the Program's 
training needs, the fiscal year 2018 budget request supports the land-
based prototype refueling overhaul at the Kesselring Site in upstate 
New York. In fiscal year 2018, Naval Reactors continues the core 
manufacturing work needed for the refueling overhaul, which retires 
manufacturing risk for the life-of-ship core for Columbia-class. 
Further, plant service-life engineering design will be largely 
completed in fiscal year 2018 to ensure that the land-based prototype 
overhaul, performed concurrently with refueling, supports 20 additional 
years of Naval Reactors' commitment to research, development, and 
training in upstate New York.
    The Naval Reactors fiscal year 2018 Budget Request also contains 
funds to continue the Spent Fuel Handling Recapitalization Project. 
Congressional support in fiscal year 2016 and fiscal year 2017 for this 
much needed project has enabled progress on site preparations, long 
lead material procurements starting this fiscal year, and approval of 
the National Environmental Policy Act Environmental Impact Statement 
Record of Decision. In addition to starting site preparation and long 
lead material procurements, we are using the $100 million received in 
fiscal year 2017 to finalize key facility and equipment requirements 
and advance facility design to support establishing the Performance 
Baseline and authorizing the start of construction in fiscal year 2018. 
Continued Congressional support will ensure that the facility in Idaho 
is ready to receive spent nuclear fuel from aircraft carriers in fiscal 
year 2024 and be fully operational by 2025.
    In addition to our three main priority projects, Naval Reactors 
also maintains a high-performing technical base to execute nuclear 
reactor technology research and development that guarantees our Navy 
remains technologically ahead of adversaries, as well as the necessary 
equipment, construction, maintenance, and modernization of critical 
infrastructure and facilities. By employing an efficient and effective 
technical base, the teams of talented and dedicated people at our four 
Program sites--the Bettis Atomic Power Laboratory in Pittsburgh, the 
Knolls Atomic Power Laboratory and Kesselring Site in greater Albany, 
and the Naval Reactors Facility in Idaho--can perform the research and 
development, analysis, engineering, and testing needed to support 
today's fleet at sea and develop more capable nuclear-powered warships. 
Our labs perform the technical evaluations that enable Naval Reactors 
to thoroughly assess approximately 4,000 emergent issues annually and 
deliver timely responses that ensure nuclear safety and maximize 
operational flexibility. This technical base supports more than 17,500 
nuclear-trained Navy sailors, who safely maintain and operate the 101 
nuclear propulsion plants in the fleet 24 hours per day, 365 days per 
year around the globe.
    At the requested funding level, Naval Reactors can safely maintain 
and oversee the nuclear-powered fleet. Naval Reactors is committed to 
executing our projects on time and on budget, and continuing the drive 
for the safest and most cost effective way to support the nuclear 
fleet. I respectfully urge your support for aligning funding 
allocations with the fiscal year 2018 Budget Request.

    Senator Alexander. Thank you, Admiral.
    We will now begin five-minute round of questions.

                     MOX FUEL FABRICATION FACILITY

    General Klotz, last year the Obama Administration's budget 
request proposed we stop construction of the MOX Fuel 
Fabrication Facility in South Carolina and that Congress fund a 
different process called Dilute and Disposal to dilute excess 
plutonium material including the plutonium in South Carolina 
and permanently dispose of it. This year, the Trump 
Administration has proposed exactly the same thing, that we 
cancel the MOX project.
    Last year, Senator Feinstein and I and this committee 
agreed with the Obama Administration and we put in our Senate 
bill $270 million to terminate the proposal. You have said, 
both last year and this year, that the Dilute and Disposal 
alternative will cost less and get the plutonium out of South 
Carolina much sooner than it would if we continued to fund the 
MOX project. So let me ask you a series of questions, if I may, 
which and most of them can be answered yes or no, if you would, 
please.
    Last year we did not know if Russia would agree to modify 
the agreement to allow us to use Dilute and Disposal to get rid 
of the plutonium, but since then Russia has withdrawn from the 
agreement, is that correct?
    General Klotz. Yes, Sir. Essentially--sorry. Yes, Sir. 
Essentially, it is. The term they have actually used is they 
have suspended their participation in the Plutonium Management 
Disposition Agreement and they have set a whole series of 
unrealistic and non-germane conditions in order to return to 
the Plutonium Management Disposition Agreement.
    Senator Alexander. So I am going to conclude that unless 
Russia changes its mind, it is out of the agreement.
    General Klotz. Yes, Sir.

                     WASTE ISOLATION PILOT PROJECT

    Senator Alexander. Last year, we did not know if WIPP 
(Waste Isolation Pilot Plant) would actually reopen. Since 
then, WIPP has reopened and resumed operation, is that correct?
    General Klotz. Yes, Sir. We resumed operations earlier this 
year.

                    DILUTE AND DISPOSAL OF PLUTONIUM

    Senator Alexander. Let us talk about the dilute part of 
dilute and disposal first. There were some questions last year 
about whether the dilute and disposal method was a proven 
success. Last year the Department started to process plutonium, 
not plutonium that is part of the agreement with Russia, but 
other plutonium, using the dilute and disposal method, isn't 
that true?
    General Klotz. Yes, Sir.
    Senator Alexander. Where will that plutonium go after it is 
diluted?
    General Klotz. Sir, it will go to the Waste Isolation Pilot 
Project, or WIPP, near Carlsbad, New Mexico. In fact, there 
have already been four shipments since WIPP resumed operations 
this year of diluted plutonium from Savannah River.
    Senator Alexander. So you can dilute plutonium using this 
method. You can ship it to WIPP. There is about 13 tons of 
plutonium in South Carolina that is not needed for the weapons 
program and about half of that was included in the agreement 
with Russia. Last year, you testified before this committee 
that all of the excess plutonium in South Carolina could be 
sent to WIPP under current law. Is that still your opinion?
    General Klotz. Yes, Sir.

       COMPARISON OF MOX FUEL FABRICATION TO DILUTE AND DISPOSAL

    Senator Alexander. You previously testified that operating 
the MOX project would cost at least twice as much as operating 
the dilute and disposal method. Is that still your opinion?
    General Klotz. Yes, Sir. And, in fact, a recent report 
since we last testified by the Army Corps of Engineers puts it 
even more than twice as much.
    Senator Alexander. How do the construction costs compare 
for the MOX project and dilute and disposal project?
    General Klotz. Yes, Sir. $17 billion, at least $17 billion 
is the total project cost for MOX, of which approximately $5 
billion have already been expended. And $500 million, million 
with an M, for the dilute and disposal.
    Senator Alexander. So going forward, that would be $12 more 
billion for MOX under your figures, $500 million for dilute and 
disposal.
    General Klotz. Yes, Sir.
    Senator Alexander. And the dilute and disposal method gets 
the plutonium out of South Carolina sooner. Can you tell me how 
much sooner?
    General Klotz. Well, if we--we would start dilute and 
disposal in the late 2020s vice the early 2050s. In other 
words, we could do dilute and disposal. We could start to move 
out the MOXable material in the last 2020s and finish by the 
early 2050s and end in about 2050 rather than 2065. So it is 
cheaper, and faster, and it is the best maneuver.
    Senator Alexander. So that is at least 20 years faster or 
more to get the MOX out of South Carolina if you use dilute and 
disposal.
    General Klotz. Yes, Sir.
    Senator Alexander. Just a couple of more questions. I 
understand there is a considerable amount of excess plutonium 
in Texas. Can we dispose of that material using dilute and 
disposal and when could that process begin?
    General Klotz. Yes, Sir. We could do that. Our current plan 
is we would do that, we would do the dilute and disposal 
operation, it would finish up at Savannah River before being 
shipped to WIPP. We would probably start that around 2035 after 
we had shipped out all the plutonium that currently sits at 
Savannah River because of our commitment to the State of South 
Carolina and the people of South Carolina to get the plutonium 
that is there now out of the state.
    Senator Alexander. So, to summarize, it was the opinion of 
the Obama Administration and it is now the opinion of the Trump 
Administration that dilute and disposal works, that it costs 
less than MOX, that it gets the material out of South Carolina 
sooner, and the material can go to WIPP under current law, is 
that correct?
    General Klotz. Yes, Sir.
    Senator Alexander. Thank you.
    Senator Feinstein.
    Senator Feinstein. Mr. Chairman, brilliant questions.
    Senator Alexander. That is just because you agree with me 
or I agree with you. Maybe that is the way I should say it.
    Senator Feinstein. No, I agree with you.
    Senator Alexander. But thank you.
    Senator Feinstein. I think we have a formula.
    Senator Alexander. Well, and I think the fact that 
successive administrations have come to the same conclusion is 
very important. We can talk more about it and we will come back 
to this question, but I want to give other Senators a chance to 
use their time. Thank you, Senator Feinstein.

                       LONG RANGE STANDOFF WEAPON

    Senator Feinstein. Thank you. Let me go to my big point of 
opposition, the LRSO. The so-called improvements to this weapon 
seem to be designed to make it more usable to help us fight and 
win a limited nuclear war. I have had the classified briefings. 
I have not had the latest if there are late changes. I have 
not. And I have seen the models of the present cruise missile 
plus the model of this new one.
    To the best of my knowledge, we hold conventional weapon 
superiority and it seems to me that that is adequate to meet an 
adversary's effort to escalate a conflict. So why do we need 
this new nuclear cruise missile?
    General Klotz. Well, thank you very much for the question, 
Senator. In fact, the United States Air Force, which I am proud 
to have been a part of for nearly 40 years, has had an air-
launched, a nuclear capable air-launched cruise missile since 
1982 which today would be launched off our B-52, our aging B-52 
bombers. The missile itself is starting to show signs of age. 
That is not NNSA's responsibility. That is the Air Force's and 
the Department of Defense's responsibility to resolve issues 
associated with the aging of the missile itself, and that is 
what they are doing.
    Our responsibility is to provide the warhead that would go 
on this replacement air-launched cruise missile, which they 
refer to, as you rightly point out, as the LRSO. To do that, 
our approach has been to do a life extension program of the 
family of warheads that are currently associated with the 
existing air-launched cruise missile.
    So, from our perspective, we were responding to a military 
requirement as validated by the military and as approved by the 
Nuclear Weapons Council on which we are represented to provide 
a warhead for a new missile which the Air Force is deploying or 
plans to deploy.
    Senator Feinstein. Would you agree to talk about this in a 
classified session?
    General Klotz. I would be delighted to.
    Senator Feinstein. So that I could ask questions that I 
know will be classified.
    General Klotz. Yes, Senator. We would be delighted to come 
up.

                              NUCLEAR WAR

    Senator Feinstein. Thank you. And next question, do you 
believe there is such a thing as a limited nuclear war with----
    General Klotz. I'm sorry. Go ahead.
    Senator Feinstein [continuing]. Nine nuclear powers?
    General Klotz. My view has been, and I have been in this 
business as I indicated earlier, in the military and now here 
for over 40 years, is that a nuclear war cannot be fought and 
must never be fought. The purpose of these weapons is to 
provide deterrence so that any other nation or sub state actor 
who has a nuclear weapon will be persuaded not to use that 
against the United States or against our allies. And that is 
why we maintain these awesome weapons.
    And indeed there has been no major war between the major 
powers of the world since the Second World War. And that is 
after, you know, a century, a half a century, of utter 
devastation and millions of people killed and devastation to 
cultural icons in cities across the world. I think it is 
significant that 70 years of relative peace we have had between 
the major powers since the end of the Second World War maps 
almost one to one to the existence of these nuclear deterrents, 
which we have maintained since the Second World War.
    Senator Feinstein. There is one point that really bothers 
me. We do not have a no first use policy. And this is geared 
toward Russia. And I think we ought to sit down and we ought to 
understand, the political branch as well as the military and 
the technical branch, really whether this is what we want to 
do. I know for a fact that at the time of the New START 
negotiations because I was in Geneva, I was able to talk with 
the Russian military, that there was a real interest in 
reducing weapons. And we did and now everything appears to have 
fallen apart.
    Well, that is part of a bigger agenda too, so you are not 
going to solve the bigger agenda with a nuclear weapon. And I 
am really worried about this because who knows what is going to 
happen? Who knows what order the President will give? And to 
have a weapon that can travel the distance and do the harm and 
may not be able to be aborted I think is a very, if that is the 
case, a difficult issue.
    So I am probably older than any of you, but I remember the 
pictures in the San Francisco Chronicle and other papers when 
we dropped the bombs on Hiroshima and Nagasaki. And they are 
awful and what we did and the hundreds of thousands of people 
that were killed in those two cities. And to build something 
and I gather improvements to make it more usable moves away 
from deterrence. How do you reconcile making it more usable 
with deterrence? That is my question.

                         LIFE EXTENSION PROGRAM

    General Klotz. Oh. Well, I do not know that the delivery 
platform that the Air Force is developing or the warhead that 
we are extending the life of is going to make these things more 
usable. They enhance--the capabilities they have are roughly, 
from our perspective, are roughly the same. I will not speak to 
the Air Force program. We would have to discuss that in a 
different setting, the Air Force Missile Program.
    But from our perspective, it is what we are essentially 
doing is designing into this weapon in addition to updating the 
components as part of the life extension. We are also designing 
in more safety features into this weapon that were not there 
before as we do with all life extension programs. So it is not 
our intent, from the NNSA's perspective, it is not our 
objective to make a more ``usable'' weapon. Our intent is to 
extend the life of the existing weapon and the capabilities 
that it has and has had for quite some time while at the same 
time designing in additional safety and security features.
    Senator Feinstein. Thank you.
    Senator Alexander. Thank you, Senator Feinstein.
    We will go to the other Senators and then, Senator 
Feinstein, we will come back for--you will have as much time as 
you would like to ask questions on that or other subjects.
    Senator Merkley.

                      W80-4 LIFE EXTENSION PROGRAM

    Senator Merkley. Oh, thank you, Mr. Chairman, and thank you 
all very much for coming and joining us.
    I wanted to start by asking about the W80 warhead for the 
air launched cruise missile that I believe is being transformed 
to the W84. And I understand that it is primarily a life 
extension program for the long range standoff missile, but is 
that also changing? Does the warhead have to be modified? Is it 
another--is it an alteration or is it just a life extension 
program?
    General Klotz. Could I suggest that we ask Mr. Calbos to 
answer that? Because he is actually, you know, my Deputy who is 
responsible for the whole weapons activity.
    Senator Merkley. Absolutely. That would be great.
    Mr. Calbos. Thank you, Senator. I appreciate the 
opportunity to be here to answer the questions on our weapons 
programs.
    The W80-4 is a lifetime extension program. As the 
Administrator said, we are focused on extending the life of the 
individual components and where possible, improving the safety 
and surety of the system. It is, and I think you mentioned the 
W84. It is the W80-4.
    Senator Merkley. Yes, W80-4.
    Mr. Calbos. W80-4 is the new warhead. We are at the very 
early stages of that work. Our LEP process, our lifetime 
extension process, takes about, say, 10 to 15 years. We are 
roughly in year 2 of that where we are looking at different 
technologies and trying to decide what ultimately will go into 
the final design of the lifetime extension program.
    Senator Merkley. So is the $400 million for the program 
just for design strategy?
    Mr. Calbos. Yes, Sir. The $400 million in the request is 
for concept development and design, initial design.

                             W88 ALTERATION

    Senator Merkley. Okay. Let me turn to the W88 and the 
alteration program. This is one of the warheads on the D5. And 
can we assume that because it is being called an alteration 
program you are changing the qualities of the warhead? And can 
you expand on that in an unclassified setting?
    Mr. Calbos. Yes, Sir. I can say a little bit about that. 
That is officially--the W88 is officially referred to as an 
alteration. The initial scope of that program was to replace 
the arming, fuzing, and firing system. Frankly, one of the 
successes of our program is that every year when we bring back 
systems from the active stockpile, we take a look at them to 
see how they are aging, if there are any problems that we need 
to address. And we did identify a problem that we needed to 
address and we added some scope to that. That was not part of 
the original plan, but that is now, you know, part of the W88 
alterations scope.
    This past year, in February, we transitioned from 
development engineering to production engineering where we 
married up the two parts of that program into one and 
established the baseline with the new understanding.
    General Klotz. Yes. We can be a little more specific. The 
scope that Mr. Calbos was talking about is a decision that was 
made by the Nuclear Weapons Council based on data we had gotten 
from our annual surveillance program to assess the effects of 
aging, a decision to replace the conventional high explosive 
that is part of the nuclear explosive package. Since we were 
opening up the weapon or bringing the weapon back to Pantex and 
opening it up anyway, it made sense to go ahead and address 
this particular aging issue while we were there.
    So, Phil is right. The scope expanded significantly for 
what was an alteration primarily focused on the arming, firing, 
and fuzing system, but also replacing some limited life 
components while we had the weapon back at Pantex.

                     OTHER LIFE EXTENSION PROGRAMS

    Senator Merkley. Are there--so we have these four warhead 
modification programs, B61, 76, the W88 alternative or 
alteration, and the W80-4. Are there other warheads that are 
going to--such programs, similar programs, are going to be 
begun in future years as an expanding array of modification or 
life extension?
    Mr. Calbos. Sir, we spent the better part of the last two 
decades with the current suite of weapons. About 8 years ago, 
you know, our understanding led us down a course of having to 
extend the life of what was in our inventory. So those four 
that you mentioned now are the four that are currently ongoing.
    Looking ahead, we will begin other lifetime extension 
programs to address those next ones that, frankly, are starting 
to age out in the late 2020s and early 2030s.
    Senator Merkley. Thank you. My time is up. Thank you very 
much.
    Senator Alexander. Thank you, Senator Merkley.
    Senator Udall.

                           PLUTONIUM MISSION

    Senator Udall. Thank you, Chairman Alexander.
    And as I--General Klotz mentioned, in my opening, there is 
currently an analysis of alternatives ongoing for the plutonium 
mission at Los Alamos. As this analysis moves forward, can you 
assure me that the NNSA will take into account the cost, the 
schedule, and the execution of the plutonium mission?
    General Klotz. Absolutely.
    Senator Udall. Yes.
    General Klotz. Yes, Sir.
    Senator Udall. And it is important that NNSA avoid a 
decision that would unnecessarily increase the cost or 
timelines of the plutonium mission at Los Alamos and so that is 
what we are looking at there.
    General Klotz. Yes, Sir.

                             MESA FACILITY

    Senator Udall. And I spoke about the budget including a 
considerable increase for nuclear survivability. I wanted to 
also indicate that I would work to support the additional $20 
million funding request for nuclear survivability which 
includes funding for our microelectronics capability at 
Sandia's MESA (Microsystems and Engineering Sciences 
Application) facility. Can you explain how important the MESA 
facility is to the overall stockpile stewardship project and 
what issues could arise if the MESA facility is not fully 
funded and refurbished on time?
    General Klotz. Thank you very much for that question, 
Senator. This is one of our highest priorities.
    Our nuclear weapons have, as part of their functioning 
mechanism, microelectronics. These microelectronics are very 
special microelectronics. They must be hardened against the 
effect of radiation. And when we say radiation hardening, there 
are many different levels of radiation hardening. The radiation 
hardening for a nuclear weapon is far more complicated and 
needs to be far more robust than say radiation hardening for 
satellites.
    Our center of excellence for the design and production of 
radiation hardened trusted, and by trusted I mean made in 
America and we know the providence of the materials and the 
components that go in it. Our center of excellence has always 
been Sandia National Laboratories.
    Now, as you pointed out in your opening remarks, and quite 
rightly so, the facility that we have for doing that is 
beginning to age out. Not only that, is the technology is 
changing. For instance, we use 6-inch silicon wafer processing. 
The rest of industry has gone to 12-inch. So we are going to 
bridge to a new capability, a 12-inch capability, by installing 
the capability to do 8-inch and do some other refurbishments to 
the existing facility there under the fabrication 
revitalization program that will carry us to 2025.
    We are now conducting an analysis of alternatives to see 
how we will recapitalize our ability to do trusted microsystem 
design and fabrication past that date.
    Senator Udall. Great. And I look forward to working with 
you on the MESA refurbishment and to ensure that it remains on 
time and on schedule.

                     WASTE ISOLATION PILOT PROJECT

    Regarding Chairman Alexander's questions about WIPP, I 
would like to see the written justification explanation of your 
comments that all plutonium in South Carolina can be disposed 
of at WIPP under current law. Please include an explanation of 
all other waste streams that the DOE is considering sending to 
WIPP. As you know, WIPP has both volume and radioactivity 
limits in statute. And could you provide this in writing to the 
subcommittee?
    General Klotz. Yes, Sir. Yes, Sir.
    Senator Udall. Thank you. Thank you very much.

           CLEANUP PROJECT AT LOS ALAMOS NATIONAL LABORATORY

    The cleanup project at Los Alamos is extremely important to 
New Mexico and I think to the nation just in terms of cleanup. 
The Federal Government DOE have a duty to clean up legacy cold 
water waste. A new cleanup contract is expected at Los Alamos 
soon. Can you update us on the expected timeline and progress 
for getting that in place?
    General Klotz. I will have to get back to you on that one, 
Senator. The responsibility for that particular contract falls 
under the Environmental Management Division which is a separate 
division from NNSA within the Department of Energy, but your 
rough timeline I believe is correct.
    Senator Udall. Okay. And I have additional questions I will 
submit for the record on the cleanup going on at Los Alamos. 
Thank you very much. Thank you.
    Senator Alexander. Thank you, Senator Udall.

                      URANIUM PROCESSING FACILITY

    General Klotz, let me ask you about the Uranium Processing 
Facility. I visited with Secretary Perry there in Oak Ridge a 
few weeks ago. Five years ago Senator Feinstein and I became 
alarmed, would not be too strong a word, about continuing 
prospects of cost overruns there and have worked hard to keep 
the project on time and on budget, which has included a Red 
Team review of the project.
    We said we wanted the design to be completed at least 90 
percent before we began construction of the facilities. We 
urged the Department to take aggressive steps to get costs 
under control including breaking the project up into more 
manageable pieces.
    So I have this series of questions. Can you confirm today--
let me add to that. Senator Feinstein and I meet regularly with 
you and other officials for an update on that. And we 
appreciate the regularity of that and I believe it makes a 
different in keeping the spotlight on it. Can you confirm today 
that the Uranium Processing Facility construction project is 
still on track to be completed by 2025 at a cost of no more 
than $6.5 billion?
    General Klotz. Yes, Sir.
    Senator Alexander. When do you expect the design to be 90 
percent complete?
    General Klotz. Early this fall.
    Senator Alexander. Do you have adequate staff to review the 
designs when they are submitted for your approval later this 
year?
    General Klotz. Yes, Sir.
    Senator Alexander. When do you anticipate construction of 
the new facilities will begin?
    General Klotz. Well, if we complete the design as we expect 
to do at the 90 percent, by the end of this fiscal year or 
early fall, then we would be able--we have to go through a 
series of internal approval processes. So we could begin 
construction of the nuclear facilities in spring of 2018.
    Senator Alexander. Spring of 2018.
    General Klotz. Yes, Sir.
    Senator Alexander. So the construction would then be 
between 2018 and 2025.
    General Klotz. Yes, Sir.
    Senator Alexander. Have you been able to apply the lessons 
learned from the Uranium Processing Facility to other big 
construction projects like the plutonium facility in New 
Mexico?
    General Klotz. Yes, Sir. We have.
    Senator Alexander. Such as?
    General Klotz. Well, for instance, the concept that you 
rightly had, you and Senator Feinstein, rightly had concerns 
about was this notion that to replace the uranium processing 
capability in Y-12 at Oak Ridge we had to--we would build a one 
big box and try and put all our activities into that building. 
It seems to make sense, one building. The problem with that is 
that there are many different levels of security and many 
different levels of safety. And the cost of housing those 
different levels varies dramatically.
    So if you can segregate the work by hazard category and if 
you can segregate the work by security category and build 
buildings that are fit for each of those you can save 
significantly on square footage.
    Senator Alexander. That was a recommendation of the Red 
Team.
    General Klotz. Yes, Sir. And we will--and again, that was 
another idea that you and Senator Feinstein had that was 
implemented and we will forever be indebted to Dr. Thom Mason 
for his leadership and his vision in leading that Red Team 
report.
    Senator Alexander. Thank you. Let me ask you about the new 
contract. Basically, you have consolidated operations at Y-12 
at Oak Ridge with Pantex in Texas, is that right?
    General Klotz. Yes, Sir. We have.
    Senator Alexander. And so you have got one set of--one 
group managing both facilities as the weapons and the parts go 
back and forth. When we, Secretary Perry and I, were in Oak 
Ridge recently, we talked about an innovative contract used to 
drive cost savings by the contractor. My understanding is that 
at first the contract was a difficult contract and that the 
contractors first assessment in fiscal year was a score of 57 
out of 100. Last year it was 77 out of 100. How are they doing 
now? How much money have you saved? And how much money do you 
think you might be able to save during the life of the 
contract?
    General Klotz. They are doing much better and I am very 
pleased with the progress there being made. And to their 
credit, this was a difficult challenge that the new contractor 
was handed to consolidate activities at two geographically 
separated organizations, one in Tennessee and the other in 
Texas, doing slightly different types of work and with 
different histories, cultures, and situations was a big task.
    And I think, quite frankly, it was a bigger task than 
either we in the Department of Energy and NNSA realized it 
would be and I will let the contractors speak for themselves, 
whether it turned out to be a bigger task. But they are 
learning. They are working this very hard.
    Senator Alexander. And did you save money?
    General Klotz. We have saved money. We have validated 
savings in the $1 to $200 million range so far. We expect to 
validate even more savings as the contract continues.
    Senator Alexander. What is the length of the contract?
    General Klotz. I would have to get back to you with a 
specific on that.
    Senator Alexander. Do you have an estimate of the savings 
for the term of the contract?
    General Klotz. I will have to give you the precise number 
on that. But the important thing about the savings is they take 
those savings and they can plow it, essentially, back into 
infrastructure and processes at the facility and they are doing 
that. I think there is a total of 16 projects which the 
contractor has taken on to do just that.
    Senator Alexander. Thank you.
    Senator Feinstein, why don't you ask whatever questions you 
have and then I will wind the hearing up.
    Senator Feinstein. All right.
    Senator Alexander. I am going to ask the Admiral about used 
nuclear fuel at the very end, so I will----
    Senator Feinstein. Okay.
    Senator Alexander. But I will wait until you finish your 
questions.

               CONVERTING NAVAL REACTORS FROM HEU TO LEU

    Senator Feinstein. All right. In our fiscal year 2016 Bill, 
we provided $5 million for a study of the feasibility of 
converting naval reactors from HEU to LEU. And we thought this 
was an interesting concept and the way for the United States to 
act as a role model for other countries considering using HEU 
in their nuclear navies. So, Admiral, can you give us a 
progress report on that issue?
    Admiral Caldwell. Yes, ma'am. We were asked to provide 
Congress a conceptual plan for developing a low enriched 
uranium capability for Navy nuclear propulsion. We signed out 
that report and delivered it. And essentially what it says is, 
it says that to develop a low-enriched uranium core, it would 
take about a billion dollars and 10 to 15 years to develop it. 
The reason why it would take that long is we need to develop an 
advanced fuel system to be able to use low-enriched uranium.
    Now, the history of the program is that we have used highly 
enriched uranium. That is, we have taken that and we have 
perfected that. It has allowed us to develop these cores that 
last for the life of a ship. In fact, right now all of the 
submarines we are building have life of the ship cores. The 
Columbia-class will have a 42-year core using highly enriched 
uranium. We have taken that technology almost as far as we can.
    To go to low enriched uranium though, we would need a 
different system and success would not be guaranteed. It is 
quite a leap to go forward. And I think so----
    Senator Feinstein. Explain why it is quite a leap.
    Admiral Caldwell. Because we are essentially adding less 
energy into the core. And when you do that, one, you would have 
to figure out how to add more low enriched uranium to get the 
required endurance, energy, performance, speed out of the core. 
And----
    Senator Feinstein. So I do not----
    Admiral Caldwell [continuing]. With the technology we have 
today, ma'am, we just cannot do that. We need a new fuel system 
to be able to do that.
    Senator Feinstein. Okay. I am trying to understand. So you 
are saying to fuel one of the submarine reactors with LEU, you 
would have less drive power, therefore less speed. I do not 
know. Less--is it just speed? Is that--not that that is not a 
big----
    Admiral Caldwell. Less endurance, less energy to use for 
anything on the ship. You would have to probably refuel it more 
frequently. You would take it offline. You would--it might end 
up--if you were to go on such a path, you might have to 
actually build more submarines so that you could maintain the 
required presence that you need forward.
    Senator Feinstein. How do we perform against a Russian 
nuclear submarine?
    Admiral Caldwell. Well, we cannot talk about classified 
information.
    Senator Feinstein. No, I am not.
    Admiral Caldwell. But our nuclear propulsion program has 60 
years of exceptional performance, safe, reliable, effective 
operations. That is because committees like this have provided 
us stable, secure funding. That has allowed us to have a strong 
technical base. Everything we do is based on technology and 
science. It has allowed us to hire the right people and 
maintain our facilities and maintain our systems to very high 
standards.
    To go back to your question, ma'am, one of the things that 
my responsibility includes is to think about the future. In the 
future, our ships will require more energy, more endurance, and 
I need to go continue working on an advanced fuel system. I am 
making progress on that at a slow pace. We need to continue 
working on that and in the future that advanced fuel system 
would allow me to get more out of a highly enriched uranium 
core. It might offer possibility for a low enriched uranium 
core, although, as I said, success cannot be guaranteed. But I 
think it is important for us to continue to work on that. I can 
make some progress on that with the funding that I have, but to 
get to an advanced core, I would need significantly more money 
than I am getting right now.
    Senator Feinstein. How about taking the LRSO funds?
    Admiral Caldwell. I will not comment on that, ma'am.

                    REPLACEMENT OF BLOOD IRRADIATORS

    Senator Feinstein. I am not asking you to. I have supported 
the efforts to work with hospitals and medical facilities and 
industrial users to replace existing devices with those that do 
not rely on radiological sources. Can one of you, and I do not 
know who it should be, tell me more about NNSA's program to 
spur the replacement of blood irradiators in California and New 
York?
    Mr. Huizenga. Yes, I can take that.
    Senator Feinstein. And what you think the--how important 
you believe it is. It seems--never mind. I am not going to 
categorize it, but how important you think it is.
    Mr. Huizenga. We are with you. It is extremely important to 
us as well and we are very focused on this. I think you 
probably--maybe your staff has told you we recently were out in 
California, a very important workshop with the Nuclear Threat 
Initiative and focusing on this effort. And you mentioned there 
is over 100 cesium irradiators that are, you know, interested 
in working with us for replacement. We are also doing the same 
thing in New York City. So this has got our attention. And of 
course, this is the ultimate in reducing the threat of a dirty 
bomb. If you can get people to actually not need to use a 
source that could be used for a dirty bomb by using x-ray 
technology or some other technology, you completely remove that 
threat forevermore.
    Senator Feinstein. So what other devices are targeted for 
replacement?
    Mr. Huizenga. That is the----
    Senator Feinstein. Just----
    Mr. Huizenga [continuing]. Primary. The cesium is soluble 
and dispersible in this form. And so it is one of the most 
important ones for us to try to address because it is one of 
the highest threats. So that is what we are focused on right 
now. There is cobalt and other ones that are highly radioactive 
that we are also working on, but cesium is our biggest 
replacement threat.

                    NUCLEAR NONPROLIFERATION BUDGET

    Senator Feinstein. Thank you. I think I had one other 
question. I keep coming back to the cruise missiles. And I 
think the nonpro funding. How valuable do you consider that? It 
has accomplished a lot in 7 years and we have got the numbers 
here, but there are a lot of delays. And let me give you an 
example. Converting 156 reactors from HEU to LEU. It slipped 
from 2022 to 2035. Removal of HEU and plutonium from foreign 
countries has slipped from 2019 to 2022. Securing almost 4,400 
building with high priority radiological materials has 
accelerated from an original goal of 20 to 10 years, 11 years 
earlier, 2033.
    Why? Is the Administration backing away from its 
commitment? Is that what I read in this, General?
    General Klotz. If I could start on just the numbers, 
Senator, and then Dave is the expert on the, what those numbers 
pay for.
    First of all, in terms of the overall, as you mentioned in 
your opening remarks, the overall funding request for the 
Defense Nuclear Nonproliferation Appropriations. The reasons 
you see the numbers go down from last year's enacted is, one, 
one of the major components of that account is the construction 
of the MOX Fuel Fabrication Facility. That sits within the 
Defense Nuclear Nonproliferation account. And because last year 
the Administration, last year the Congress enacted $335 million 
for that and we are only requesting $279.
    Senator Feinstein. I am in shock.
    General Klotz. It goes down.
    Senator Feinstein. This is the first I heard this.
    General Klotz. Yes. Also, we are reducing the amount of 
money--this really gets down into budget, the budget weeds. We 
are reducing the amount of money that we need to cover our 
obligations under what we call legacy pensions because of rate 
changes, adjustments in actuarial projections, and that sort of 
thing. So that number is down.
    As far as the core things that we do in nonproliferation, 
that number is slightly down from our--from the enacted. And by 
core, I mean the things you were just talking about. But quite 
frankly, it is higher than our request last year. Our request 
for Dave's core nonproliferation programs was $1,196,000,000. 
You know, we took a look at what would be required to carry on 
our programs for this year and came up with a request for 
$1,245,000,000. So that would have been more than our fiscal 
year 2017 request.
    But the Congress surprised us and when we finally got the 
final results of the Omnibus you had plussed up the core 
nonproliferation programs primarily in research and development 
in nonproliferation. So that is why the number is down 
slightly.
    Senator Feinstein. Well, so you are saying----
    General Klotz. But Dave can talk more specifically about 
what that buys.

                              MOX FACILITY

    Senator Feinstein. How much does MOX take of nonpro funds?
    General Klotz. Well, last year it was $335 million----
    Senator Feinstein. Really?
    General Klotz [continuing]. Was the appropriation. And this 
year we are requesting $279.
    Senator Feinstein. So if we were to go to the dilute 
formula could that free up the $279 million?
    General Klotz. No, it cannot because there are costs 
associated with terminating a contract. There are costs 
associated with, you know, making sure that the facility is put 
in a safe and secure mode. There are vendors that--invoices 
that have to be paid off. There are labor law restrictions in 
terms of how quickly both white collar and blue collar can, you 
know, be given their termination notices. So it is expensive to 
terminate.
    Senator Feinstein. How much is in this year? Is it $279? Is 
that----
    General Klotz. We are requesting $279.
    Mr. Huizenga. Yes. It is $270 for MOX----
    General Klotz. MOX, yes.
    Mr. Huizenga [continuing]. And $9 million to start the 
dilute and disposal.
    Senator Feinstein. So the $270 is nonpro funding?
    Mr. Huizenga. It is in our budget, Senator.
    Senator Feinstein. For nonproliferation funds.
    Mr. Huizenga. It is in the overall Defense Nuclear 
Nonproliferation budget.
    Senator Feinstein. So when this goes to WIPP does it still 
take that kind of money or is that money freed up?
    Mr. Huizenga. Well, for a while if you approve our 
terminating the MOX project, some of that money will go to the 
termination costs, as the administrator pointed out, but after 
a while some of that money will then start to build up to put 
the glove boxes in South Carolina to be able to do the dilute 
and disposal, but after some period of time that construction 
will be gone as well and arguably there could be some head room 
in the nonproliferation budget.
    Senator Feinstein. Why do you need glove boxes if we are 
not going ahead with it?
    Mr. Huizenga. No, no. I am sorry. I misspoke. I mean, the 
glove boxes are to do the dilute and dispose, to do the 
opposite of MOX.
    Senator Feinstein. Oh, I see. Okay.
    Mr. Huizenga. So there will be some termination costs that 
will come down over time. Some of the amount of that headroom 
coming down will be taken up by putting the glove boxes in 
South Carolina. And then eventually that construction work will 
just go down to zero and, you know, to that extent there might 
be some extra headroom in the nonproliferation budget.
    But I guess I would like to point out, we have a vigorous 
discussion of the importance of Phil's program and my program 
and the Naval Reactors' program and we have had in a bipartisan 
support through a number of administrations and on the Hill for 
years. And you mentioned a number of the things that we had 
accomplished since 2010. Part of the accomplishments is, you 
know, we did Nunn-Lugar work for 25 years, did a tremendous 
amount of work securing material in Russia and the former 
Soviet Union.
    Senator Feinstein. Right.
    Mr. Huizenga. That work ended in 2014, so I mean we started 
to then, you know, instead of the money that we requested for 
that, we started requesting it for the cesium replacement 
project and other things. But some of the--when people 
criticize us for reducing the request, some of it is because we 
got the work done and that is a good thing. But we do not shy 
away from having this discussion inside the building and trying 
to, you know, defend what we need to keep going with our 
nonproliferation program.
    Senator Feinstein. Thank you. Could I ask one more quick 
question?
    Senator Alexander. Oh, sure.

                        CROSS DOMAIN DETERRENCE

    Senator Feinstein. In the December 2016 Defense Science 
Board report, they called for integrating nuclear and non-
nuclear capabilities for something called cross domain 
deterrence. And specifically, it called for a more--and this is 
a quote--a more flexible nuclear enterprise that could produce 
if needed a rapid tailored nuclear option for limited use 
should existing non-nuclear or nuclear options prove 
insufficient. What are they getting at in that and what are 
your thoughts on that, General?
    General Klotz. Well, Senator, the Defense Science Board is 
an advisory board to the Secretary of Defense and the 
Department of Defense, and therefore we have no connection with 
it through the--a formal connection with it. And as an advisory 
board, their views are the views of the citizens, private 
citizens, I think for the most part, who have been named to 
that particular board.
    I would just say that, you know, my sense is the nuclear 
deterrent that we have now is a very safe, secure, effective, 
and reliable deterrent. It is beginning to age, and with the 
support of Congress, we are fixing that problem in terms of the 
life extension programs that we have, but also the investments 
that are being made in our laboratories, our production 
facilities, and other places where our people work to make sure 
that we can continue to sustain this.
    If there--and I am very satisfied and I think the DOD is 
very satisfied with the force that we have now and that we have 
projected in the plans which now lie before you for extending 
the--for the platforms and for the weapons.

                       NUCLEAR WEAPONS STOCKPILE

    Senator Feinstein. Could we cut back on the hedge without 
hurting what you just said?
    General Klotz. Well, we have, as we have discussed before, 
we have gone down significantly in the number of weapons that 
we have in the stockpile. I think last time----
    Senator Feinstein. Could I get a letter signed by you, in 
particular, of your analysis of the hedge?
    General Klotz. Sure.
    Senator Feinstein. What it was.
    General Klotz. Yes.
    Senator Feinstein. What it is now.
    General Klotz. Yes.
    Senator Feinstein. And what it should be to have--I mean--
--
    General Klotz. I can tell you what it is now, but let me 
just caveat that by saying, you know, this Administration, like 
every new administration, is currently conducting a nuclear 
posture review. Those are the kinds of issues which will be 
reviewed as under the terms of reference.
    Senator Feinstein. Is it still three to one?
    General Klotz. Three to one in terms of?
    Senator Feinstein. The hedge?
    General Klotz. We would have to talk more--in a different 
setting more specifically----
    Senator Feinstein. Okay.
    General Klotz [continuing]. About how we have calculated 
the need, the current calculation for the need. Now, whether 
that will change in the NPR, you know, it would be too soon to 
speculate, but those are the types of issues which are going to 
be discussed within the terms of the----
    Senator Feinstein. Well, I assume we funded. I assume there 
is money for it in this bill.
    General Klotz. Oh, yes. No.
    Senator Feinstein. So it seems to me it is ripe for 
discussion. I mean, to have a size of the hedge that we really 
do not need makes no sense to me.
    General Klotz. Well, I am convinced that we have over the 
last two decades gotten the size of the stockpile down very 
significantly. And indeed, as you will recall from our 
testimony on some of the life extension programs that we are 
doing, by doing these life extensions we can bring down the 
overall size of the active stockpile. By consolidating three 
different, four different types of B61 gravity bombs under the 
B61-12 life extension program, we reduce the total number. We, 
by doing the W76-1 life extension program, we reduce 
significantly the number of W76s that are in the stockpile. So 
that has been a huge part of the whole life extension program.
    Senator Feinstein. Do those W76s in the stockpile have a 
three to one hedge?
    General Klotz. I would have to tell you the specific one.
    Senator Feinstein. See, that is what I am interested in.
    General Klotz. Yes. Yes.
    Senator Feinstein. In finding out. I mean, I know things 
change, but a lot of people tell me they also change very 
expensively with a hedge that is really not practically 
necessary.
    General Klotz. Yes. We can let you know, you know, what our 
numbers are in the stockpile, but that is a classified 
discussion.
    Senator Feinstein. Okay. Thank you.
    General Klotz. The specific numbers.
    Senator Feinstein. Thank you, Mr. Chairman.
    Senator Alexander. Thank you, Senator Feinstein as well. I 
learned a lot from you today. That is good.

              MOX FACILITY COMPARED TO DILUTE AND DISPOSAL

    Following up on Senator Feinstein's comparisons, the cost, 
obviously if your figures are right about dilute and disposal 
over the long term there will be a pretty big savings in the 
nonproliferation budget at some point.
    Senator Feinstein. Well, they will find a way.
    Senator Alexander. Well, they might, but they will have to 
come back and get you to approve it. I mean, the cost to build 
the MOX facility you estimate to be $17 billion, right?
    General Klotz. Five already expended, twelve to go. Yes, 
Sir.
    Senator Alexander. So you have got 12 to go. The cost to 
build dilute and disposal would require half a billion.
    General Klotz. Right now, that is at our high end.
    Senator Alexander. Yes. Now, we probably should add to that 
the cost of termination of dilute and disposal to make a fair 
comparison, right? I mean, of MOX.
    General Klotz. There will be a termination cost associated 
with getting out of MOX.
    Senator Alexander. So, and I imagine we will be having some 
discussions about this over the next few weeks and I think we 
ought to try to present this in the most accurate light. And I 
think to compare moving from one to the other and ignoring the 
termination cost of MOX would not be a fair comparison. So if 
you could think--you may have that this minute, but you do not 
need it this minute. I think I would--but I think I would have 
that.
    And then the operating costs you have estimated of MOX 
would be $800 million to $1 billion a year and dilute and 
disposal $400 million a year. Is that about right?
    General Klotz. Well, at least a half a billion average 
annual operating cost for MOX is the--and approximately $100 
million, so 20 percent of the operating cost for doing dilute 
and disposal, 20 percent of the MOX operating cost for doing 
dilute and disposal.
    Senator Alexander. Okay. Let me----
    Senator Feinstein. Wait. Is he saying it costs 80 percent 
less?
    Senator Alexander. That is not what figures I had. I had 
that the cost of operating MOX would be $800 million to $1 
billion and the cost of operating dilute and disposal would be 
less than $400 million. Tell me again the comparison of 
operating MOX and operating dilute and disposal.
    General Klotz. I have here on this chart an average annual 
operational cost excluding program cost for MOX project, 
approximately $500 million. And that is in today's unescalated 
dollars. Some of the reports have unescalated and escalated 
dollars. And then an average annual operating cost excluding 
program costs for surplus plutonium disposition of $100 
million. Am I reading the chart correctly?
    Senator Feinstein. Really?
    Mr. Huizenga. I gave him the wrong chart, I think. Can I--I 
can clarify this because we might have had a chart mix-up.
    Senator Alexander. Yes.
    Mr. Huizenga. I think you are right. $800 million to a 
billion for operating costs for MOX and $400 million for 
operating costs for dilute and disposal.
    Senator Alexander. Okay.
    Senator Feinstein. Oh.
    Senator Alexander. When we have our discussions over the 
next few weeks, we need--that is very specific and that is very 
clear to me, but we need to have--we need to be accurate about 
that and we need to include the termination costs of MOX to 
make a fair----
    Mr. Huizenga. Yes. That is fair.
    Senator Alexander [continuing]. Comparison.
    Mr. Huizenga. Yes.

                     DISPOSAL OF SPENT NUCLEAR FUEL

    Senator Alexander. Let me move to the Admiral for just a 
minute. Senator Feinstein, this will be my last question and 
Senator Feinstein and I are interested in the disposal of used 
nuclear fuel and in the commercial setting and we are trying 
different ways to do that. Of course, the most obvious way to 
do it is to open Yucca Mountain, although the quickest way to 
do it seems to be and the cheapest way to do it seems to be to 
continue to open Yucca Mountain, but to open a private facility 
in Texas or New Mexico where licenses are contemplated or put 
in.
    But you have got experience in dealing with used nuclear 
fuel, Admiral. You already have an interim storage site for the 
used nuclear fuel. And give us a short explanation of how you 
handle used nuclear fuel, where it is, and where it goes, 
including--I am correct, I believe, that you have, what, an 
interim storage site of the kind Senator Feinstein has placed 
in our appropriations bill for the last several years, a kind 
of private site that we also have talked about. And would your 
fuel eventually go to Yucca Mountain when it is opened and 
could it go to an interim storage site?
    Well, it would not make much sense to send it to another 
interim storage site from one interim storage site, I guess. So 
the only place yours could go would be to a permanent 
repository of some kind. But give us a short explanation of 
that because it is relevant to our concern about unspent 
nuclear fuel at commercial sites.
    Admiral Caldwell. Yes, Sir, Mr. Chairman. As you know, my 
responsibilities in the Navy Nuclear Propulsion Program are 
cradle to grave, design, development, overseeing operations, 
and then handling the fuel at end of life.
    So what we do, the short version, is that when we defuel 
carriers or submarines, we load that fuel into specialized 
containers and we ship it to the Naval Reactors facility on the 
Idaho National Lab in Idaho. Once it gets there, it is removed 
and put into a pool at the expended core facility. And then, it 
is----
    Senator Alexander. These are like the spent fuel pools at 
any commercial reactor.
    Admiral Caldwell. Probably similar, yes, Sir.
    Senator Alexander. And how long do they stay in those 
pools?
    Admiral Caldwell. It depends. A few years. We have some 
fuel that we retain in there so that we can do analysis and 
examinations.
    Senator Alexander. What is a few years?
    Admiral Caldwell. Two. Two years. Well, we have--by 
agreement with Idaho, we have to have the fuel out of the pool. 
Any fuel that went in there before January 1, 2017 has to be 
out by January 1, 2023. So we have commitments to the State of 
Idaho that we have to honor and make sure we are moving the 
pool in and out.
    Senator Alexander. No. I think where--no, what she means is 
how long does your spent fuel stay in a pool?
    Senator Feinstein. That is right.
    Admiral Caldwell. A couple of years.
    Senator Alexander. Couple of years.
    Admiral Caldwell. Ten.
    Senator Feinstein. Well, I am told in Southern California 
Edison, that it has got to stay in 5 years. They have got 3,300 
plutonium----
    Senator Alexander. I think in most commercial settings that 
is true.
    Senator Feinstein. Is that?
    Admiral Caldwell. And so I cannot comment on how they do it 
in a commercial facility. I just have not been there.
    Senator Feinstein. But 2 years is enough.
    Admiral Caldwell. But it depends on where it is coming from 
and what we are doing with it, so it can vary. And one of the 
challenges we have in the current facility is that it is not 
built for the level of production that we have to do right now. 
So we have to manage that tightly and some of that fuel can end 
up staying there for longer. But we have, as I said, 
commitments that we have to get out of that pool.
    Senator Alexander. Now we interrupted you, but so you put 
it in the pool for 2 years.
    Admiral Caldwell. Could be longer, Sir, depending on the 
fuel.
    Senator Feinstein. I think it has to be.
    Senator Alexander. It could be longer. And then what 
happens to it?
    Admiral Caldwell. Then we pull it out and we put it in 
baskets and we store--we put these baskets in what we call a 
spent fuel canister. It is a steel canister, solid steel, 
welded shut. And that canister is designed to go into a long-
term repository. It has----
    Senator Alexander. Such as Yucca Mountain?
    Admiral Caldwell. Yes, Sir. It is designed to fit in our 
storage containers and it could go into Yucca Mountain, a Yucca 
Mountain-like facility, and it is designed to last for 10,000 
years. Now, because we do not have a long-term repository, we 
are taking that fuel and we are putting it into what we call 
concrete overpacks. And then those concrete overpacks are 
stored in a building next to the expended core facility in 
Idaho.
    To date, we have 136 of these concrete overpacks. That 
equates to about 65 percent of the spent nuclear fuel in our 
program. And we will continue to store it there interimly 
pending a long-term repository. And that will allow us to 
continue to meet our obligations to the State of Idaho. But 
eventually those obligations run out and so we are watching 
very carefully where the Nation is headed and we do need a 
long-term repository to be able to handle--to deal with this.
    Senator Alexander. So your agreement with Idaho is you are 
supposed to be out of there by when?
    Admiral Caldwell. 2035, Sir.
    Senator Alexander. 2035. Senator Feinstein, unless you have 
something else, I am going to conclude the hearing.
    Senator Feinstein. I do not. Yes. Yes. We have a Johnny 
come lately.
    Senator Alexander. Well, welcome Senator Hoeven. We will--
--
    Senator Hoeven. Mr. Chairman, I will be brief, but I beg 
your indulgence. I was presiding on the floor of the Senate.
    Senator Alexander. Well, I am sure that was an exciting 
experience.
    Senator Hoeven. But I will go quickly. I have----
    Senator Alexander. We welcome you to the subcommittee 
hearing and I will stay for your comments and questions.
    Senator Hoeven. You are a gentleman and a scholar and I 
have only kind things to say about the Ranking Member as well. 
I do apologize for being late, but will be quick.

                      W80 LIFE EXTENSION PROGRAMS

    Administrator Klotz, I just have several questions for you. 
First, your written testimony indicates that you expect the 
first refurbished W80 to be produced in fiscal year 2025. How 
much margin do you have in your current plan to keep the W80 
Life Extension Program on schedule between now and 2025?
    General Klotz. I am confident we can make first production 
unit for the W80-4 by 2025, but there are a couple of concerns 
that we worry about. One, of course, is timely and consistent 
and predictable funding. If funding is late, say with an 
extended CR (continuing resolution) or funding is significantly 
reduced, then the only thing that can happen in those cases is 
schedule gets pushed to the right and costs go up whenever that 
happens.
    There are also technical risks associated with it. I cannot 
speak to the technical risks on the Air Force side of building 
the platform that this warhead will go into, but we have to 
integrate that platform with our warhead. And then, of course, 
you know, we are replacing components, many of which are made 
out of materials that are no longer available or the original 
equipment manufacturer or vendor no longer exists. So any time 
you are going to make something, even if it is an exact 
duplicate component that you were making before, if you have to 
start from scratch, there is always technical risk associated 
with that.
    Senator Hoeven. So if we have a continuing resolution, 
potentially that puts you at risk, although if we were to 
secure a continuing resolution in 2018 that looked like 2017, 
generally you would be okay?
    General Klotz. Yes. And the one thing that you did do for 
us was the exemption.
    Mr. Huizenga. It is 301D.
    General Klotz. 301D exemption that you provided last time 
that allowed us some flexibility in moving money around in the 
weapons activity account was extraordinarily important in terms 
of helping us manage cashflow during the extended CR.
    Senator Hoeven. All right. And the Air Force, I mean, as 
soon as you have that prepared, Air Force would be first in 
line to receive it, the updated--the W80?
    General Klotz. Yes. This is a system we are developing for 
the Air Force.
    Senator Hoeven. Right. Okay.
    General Klotz. Specifically for their follow-on to the air 
launched cruisers.
    Senator Hoeven. Right. I want to thank all of you for being 
here, particularly General Klotz. Thank you for your good work 
on this extremely important issue. I truly appreciate it. And I 
also, once again, want to express my appreciation to the 
Chairman and Ranking Member. Thanks.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Alexander. Senator Hoeven, you are a valued member 
of the subcommittee and we appreciate your questions and your 
attendance.
    The hearing record will remain open for 10 days. Senators 
may submit additional information or questions for the record 
within that time if they would like. The subcommittee requests 
all responses to those questions be provided within 30 days of 
receipt. The written statements of each of our witnesses will 
also be included in the record.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
              Questions Submitted by Senator Patty Murray
    Question. The Pacific Northwest National Laboratory in my home 
State of Washington is a leader in nonproliferation work for the 
National Nuclear Security Administration. In your written testimony you 
highlight the important work conducted with international partners to 
secure and account for nuclear material, and improve the ability of our 
partners to detect, interdict, and investigate illicit trafficking of 
these materials. This international cooperation has been a cornerstone 
of the Defense Nuclear Nonproliferation's (DNN) Global Material 
Security program, and it is critical that it continues.
    Administrator Klotz, do you agree that international cooperation 
with partner nations is an important component of DNN's work?
    Answer. Close coordination with partner nations is a key component 
of the National Nuclear Security Administration's (NNSA) leadership of 
global efforts to combat proliferation. These efforts require a layered 
architecture of safeguards, export controls, verification, and 
security. One of the most effective ways to ensure our national 
security is to permanently eliminate the materials that could be used 
by terrorists or would-be proliferators in a potential improvised 
nuclear device or radiological dirty bomb, or secure and safeguard 
those materials until such time that they can be eliminated.
    To achieve this, we work closely with partner countries to 
implement a defense-in-depth approach to material security. This means 
eliminating material when possible, implementing security improvements 
as close as possible to ``target'' material, where security measures 
are most effective, and creating multiple layers of security and 
detection to mitigate weaknesses in any single layer. In coordination 
with our interagency partners, such as the Department of State and 
Federal Bureau of Investigation, we provide partner nations with 
technical assistance to enhance security, safeguards, and material and 
technology interdiction capabilities, and make a focused effort to 
increase their capacity to sustain these activities.
    It is critical to U.S. national security that our partners have 
capabilities to prevent, counter, and respond to nuclear and 
radiological threats. For this reason, we continue to work with our 
partners to build their capabilities to secure and safeguard nuclear 
and radiological materials from theft or diversion; counter and 
interdict the illicit trafficking of nuclear and radiological 
materials; control the illicit transfer of nuclear and dual-use 
materials, technology, and expertise; and implement robust verification 
and monitoring protocols.
    Question. The Consolidated Appropriations Act of 2017 included a 
provision that shifted the research and development work for the U.S. 
High Performance Research Reactors program from the Material Management 
and Minimization (M3) program to the DNN research and development 
program.
    Administrator Klotz, what has been the result of separating the 
research and development portion of the U.S. High Performance Research 
Reactors program? Have there been any additional costs associated with 
this shift? Can you describe any similarities or differences in the 
type of research conducted under the DNN research and development 
program and the U.S. High Performance Research Reactors program?
    Answer. As a matter of clarification, the Consolidated 
Appropriations Act of 2017 required that all of the funding for the 
U.S. High Performance Research Reactor (USHPRR) program be allocated 
under the DNN R&D program, not only those portions related to R&D. DOE/
NNSA considers less than 5 percent of the USHPRR program to be R&D 
activities.
    Shifting the USHPRR program to DNN R&D resulted in approximately 
$100,000-$200,000 of increased costs associated with reallocating funds 
and additional accounting and reporting requirements for the National 
Laboratories executing work as part of the USHPRR program. These 
additional expenses to the taxpayer add no efficiencies with the 
execution of the work on the USHPRR program.
    The scope of work under the USHPRR program is primarily associated 
with mid to high Technology Readiness Levels (TRL) technologies and 
focuses on commercial scale demonstration and optimization. Much of the 
research conducted by DNN R&D is associated with basic science and low 
TRL technologies. Often, once the research conducted by DNN R&D moves 
to the mid to high TRL stage, a technology transfer to industry will 
occur and DNN's role will diminish. DNN R&D projects are also generally 
much smaller and shorter term efforts lasting 2 to 3 years, while the 
USHPRR program will be executed over the next decade.
    Question. The fiscal year 2018 Budget Request shifts $53 million 
for the U.S. High Performance Research Reactors program research and 
development from the DNN research and development program back to the 
M3 program.
    Administrator Klotz, can you explain why this proposed change from 
the Consolidated Appropriations Act of 2017 was made? Are there any 
milestones or requirements that exist for the research and development 
conducted under the U.S. High Performance Research Reactors program?
    Answer. The fiscal year 2018 Budget Request is consistent with 
prior year allocations for the U.S. High Performance Research Reactor 
(USHPRR) program and the fiscal year 2017 Budget Request for M3. M3 
manages both international and domestic reactor conversion work and 
while these efforts have unique aspects, there are many similarities 
that make the management of the two scopes of work more efficient if 
all funding is managed by the same program office.
    DOE/NNSA considers R&D activities to constitute less than 5 percent 
of the USHPRR program's work scope. The USHPRR program is working to 
qualify the low enriched uranium (LEU) fuel design and demonstrate a 
commercial-scale process for fabricating the LEU fuel. The USHPRR 
program established strategic and progress milestones (to date, 32 
milestones are complete and 63 milestones remain). The program includes 
management tools and oversight processes to track the 5,500 individual 
work activities that feed into the program milestones. The limited R&D 
activities in the USHPRR program are already included in these 
milestones and activities.
                                 ______
                                 
                Questions Submitted by Senator Tom Udall
    Question. In the March 29, 2016 Record of Decision (ROD) on Surplus 
Plutonium Disposition, NNSA determined that 6 metric tons (MT) ``will 
be placed in the queue of waste to be shipped to WIPP.'' 81 FR 19588.
  --What is the current schedule for preparing that 6 MT and disposing 
        it in WIPP?
  --What is the current Total Estimated Cost for preparing the 6 MT?
  --What is the current Total Estimated Cost for disposing the 6 MT at 
        WIPP?
    Answer. The Savannah River Site (SRS) will complete the down 
blending of the 6 metric tons (MT) of non-pit surplus plutonium in 
2046. In September 2016, SRS resumed down blending operations and the 
Department of Energy has completed several shipments of down blended 
plutonium to the Waste Isolation Pilot Plant (WIPP) since the 
repository reopened in January 2017. The total estimated cost to down 
blend the 6 MT of plutonium from 2018 thru 2046 is approximately $750 
million. The cost to dispose of this material at WIPP is currently 
estimated at approximately $9 million to $22 million above WIPP base 
costs, depending on shipping schedules. Costs of WIPP base operations, 
transportation and disposal are part of DOE's Office of Environmental 
Management funding, not NNSA's funding.
    Question. What are the specific forms and volumes of surplus 
plutonium that are included in the dilute and disposal program for 
which conceptual design activities and an independent validated 
lifecycle estimate are included in the fiscal year 2018 Budget Request? 
(Vol. 1, page 500).
    Answer. The Dilute and Dispose Program is intended to disposition 
34 MT of plutonium. The material is currently in various forms of 
oxides, metals and pits from dismantled nuclear weapons.
    Question. What are the specific forms and volumes of surplus 
plutonium that are not included in the dilute and disposal program? 
What are the disposition proposals for such surplus plutonium?
    Answer. The excess plutonium not part of the dilute and dispose 
program as referenced in the Surplus Plutonium Disposition Supplemental 
Environmental Impact Statement (EIS) includes approximately: 7 metric 
tons (MT) in a spent fuel form to be disposed in a geologic repository; 
4 MT in Zero Power Pulse Reactor (ZPPR) fuel for which the Department 
is evaluating disposal options; 6 MT not originally designated for MOX 
and to be disposed of at the Waste Isolation Pilot Plant, and 7.1 MT of 
plutonium in pits that does not have an assigned disposition path.
    Question. You agreed to share with us a written justification of 
your comments that all plutonium in South Carolina can be disposed of 
in WIPP under current law.
    In addition, does that include the 34 metric tons of plutonium that 
would be headed for South Carolina, including from foreign nations? If 
so, what is the justification for that as well?
    Answer. DOE is working with the State of New Mexico to address 
Waste Isolation Pilot Plant (WIPP) capacity issues, regardless of any 
decisions on the 34 metric tons (MT) of surplus plutonium. The current 
tracking method, which uses outer container volume, counts a 
significant amount of air between the inner and outer containers as 
waste. A proposed permit modification, which does not require changes 
to current law, identifying a more accurate tracking of actual waste 
volumes was submitted to the New Mexico Environment Department (NMED) 
on January 31, 2018. On June 1, 2018, NMED notified DOE that the 
request would be processed as a Class 3 modification, which involves 
more extensive procedures and public participation. On June 27, 2018, 
NMED requested additional information. We'll continue to work with the 
State on the process moving forward.
    The Department believes it is appropriate to adopt a more accurate 
method of tracking waste volumes to allow WIPP to fulfill its mission 
for all DOE sites. Continuing to use the outer container to calculate 
the volume of record could impact WIPP's ability to accept future 
transuranic (TRU) waste streams from continuing missions and clean?up 
activities across the DOE complex. DOE believes there is sufficient 
capacity at WIPP for all waste identified in the current inventory, 
given that future and potential waste streams have an inherent 
uncertainty and final waste volumes can differ significantly from the 
initially projected volumes. However, we expect that the projected 
inventory will continue to grow, e.g., due to identification of new 
transuranic waste streams and maturing of decommissioning and 
demolition planning. This more accurate calculation methodology will 
also accommodate 34 MT within the WIPP Land Withdrawal Act capacity 
limit. To meet the statutory capacity under either the existing or 
proposed new accounting method, WIPP will need to excavate disposal 
panels whether or not additional surplus plutonium is designated for 
disposal. It is important to note that not all of the 34 MT of surplus 
plutonium is currently in the State of South Carolina.
    Plutonium returned from foreign nations is part of DOE's ongoing 
campaign concerning over 6 MT of other surplus plutonium, which DOE is 
down-blending and disposing of at WIPP pursuant to prior interim 
actions and DOE's Record of Decision for the Surplus Plutonium 
Disposition Supplemental Environmental Impact Statement, DOE/EIS-0283-
S2 (April 2015).
    Question. Please include a list of any changes in permits and 
approvals that would be required and an explanation of all other waste 
streams that the DOE is considering sending to the WIPP. As you know 
WIPP has both volume and radioactivity limits in statute. To that end, 
can you explain the plan DOE has in place for storing existing and 
foreseen TRU waste in WIPP?
    Answer. The Department of Energy (DOE) updates its estimates of 
transuranic (TRU) waste destined for disposal at the Waste Isolation 
Pilot Plant (WIPP) each year in its Annual Transuranic Waste Inventory. 
The inventory includes existing TRU waste in storage at DOE sites and 
TRU waste projected to be generated by ongoing and known future clean-
up activities, and includes the 6 MT of surplus plutonium at the 
Savannah River Site. The known existing and projected waste--
``anticipated waste''--provides the basis for WIPP planning and 
regulatory compliance. As part of the inventory updates, DOE also 
gathers information on ``potential'' WIPP waste: waste streams for 
which programmatic decisions have not been made, inadequate information 
exists to determine its eligibility, or restrictions against its 
acceptance for disposal at WIPP. WIPP operational planning is not based 
on such waste streams, given the high uncertainties regarding the 
decisions as well as the potential volumes. Potential waste streams are 
identified in the 2016 Annual TRU Waste Inventory Report, Table 4-1 and 
Appendix B (http://www.wipp.energy.gov/library/TRUwaste/DOE-TRU-
3425_Rev_0_ATWIR-2016.pdf). The list of potential waste streams is 
evaluated and updated annually in the TRU waste inventory report.
    The 34 metric tons (MT) of surplus plutonium has not yet been 
designated for disposal at WIPP and is not included in the anticipated 
inventory. NNSA is currently in the process of evaluating the life 
cycle needs to dilute-and-dispose of that material. DOE's Office of 
Environmental Management is working closely with NNSA to define 
associated implications for WIPP disposal of the 34 MT. As part of that 
process, we will be working to identify all necessary measures to 
accommodate that volume and type of waste, operational considerations, 
and safety and security needs.
                                 ______
                                 
             Questions Submitted by Senator Jeanne Shaheen
    Question. In 2014, Russia suspended its cooperation with the 
National Nuclear Security Administration (NNSA) to secure their 
stockpiles of nuclear materials. As a result, efforts to construct 
surveillance systems and radiation detectors at Russian ports, airports 
and border crossings to catch potential nuclear smugglers have been 
jeopardized. What actions are you taking to detect any nuclear material 
that may have been stolen from Russia and potentially being sold on the 
black market?
    Answer. NNSA has active partnerships with the majority of countries 
neighboring Russia, including all fifteen countries of the Former 
Soviet Union, as well as Mongolia and China, to develop their 
capabilities to detect the illicit trafficking of nuclear and 
radiological materials. This work includes equipping international 
checkpoints, such as border crossings, airports, and seaports with 
radiation detection systems; and providing technical tools that can be 
used to scan areas between official borders and within a country's 
interior. NNSA also focuses heavily on training partners on the proper 
use and long-term maintenance, sustainability, and operations of these 
systems.
    Question. Are you working with Russia's neighboring countries to 
assist in the detection of potentially stolen nuclear material?
    Answer. NNSA has active partnerships with the majority of countries 
neighboring Russia, including all fifteen countries of the former 
Soviet Union, as well as Mongolia and China to develop their radiation 
detection capability along high-threat radiological and nuclear 
smuggling pathways. NNSA works with border security organizations to 
equip priority border crossings, including sea- and airports, with 
radiation detection systems. These systems are integrated into 
checkpoint operations to provide automated, continuous scanning of 
people, vehicles, and cargo. Unlike traditional security tools such as 
metal detectors, X-ray scanners, and trained canines, which cannot 
detect radiation; radiation detection systems are necessary tools to 
prevent smuggling of radiological and nuclear material.
    NNSA also provides mobile detection systems (MDS) to add security 
at other locations. MDS are routinely used near boundaries where 
equipment installations are impractical or not authorized and along 
maritime and rugged green borders. Working with multiple partners 
increases the probability of deterring and detecting smuggling of 
radiological/nuclear materials.
    Question. As you indicated in your testimony, the NNSA's counter 
terrorism and counter proliferation program are part of a broader U.S. 
Government effort to assess the threat of nuclear terrorism and develop 
technical countermeasures. How does the NNSA use its expertise to work 
with other Federal agencies to detect and identify nuclear threats?
    Answer. NNSA's Offices of Counterterrorism and Counterproliferation 
and Defense Nuclear Nonproliferation work closely with Federal partners 
to reduce risk associated with nuclear and radiological incidents by:
  --Providing specialized nuclear device-related threat information and 
        analysis to the Intelligence Community (Central Intelligence 
        Agency, Defense Intelligence Agency, National Counterterrorism 
        Center, and DOE Office of Intelligence & Counterintelligence) 
        and key Department of Defense combatant commands (e.g., 
        USSOCOM, USCENTCOM, and USPACOM) to identify potential and 
        emerging threats and support contingency planning;
  --Assessing non-traditional nuclear security vulnerabilities 
        associated with nuclear materials or weapons to support nuclear 
        security policy development efforts with the Nuclear Regulatory 
        Commission;
  --Supporting detection strategies implemented by the Department of 
        Homeland Security, and jointly responding to nuclear and 
        radiological incidents and accidents with the Departments of 
        Defense and the Department of Justice;
  --Combatting the threat of nuclear terrorism through participation in 
        the Global Initiative to Combat Nuclear Terrorism, co-chaired 
        by the United States and the Russian Federation;
  --Conducting capability assessments of our interagency partners' 
        existing tools (i.e., detection, risk assessment, and render 
        safe), and developing new tools to enhance joint technical 
        countermeasures and response capabilities; and
  --Advancing USG capabilities through research and development 
        activities with the Departments of Homeland Security and 
        Defense.
    Additional detail on these activities can be provided in a 
classified briefing.
    Question. Does the NNSA work with foreign countries to develop 
similar capabilities in order to detect nuclear threats?
    Answer. NNSA actively engages with our international partners to 
address the broad spectrum of nuclear and radiological security. In 
particular, NNSA's Office of Counterterrorism and Counterproliferation 
(CTCP) actively engages foreign countries to advance U.S. nuclear 
counterterrorism and counterproliferation objectives. CTCP has long-
standing international relationships with the United Kingdom and France 
focusing on nuclear threat reduction. CTCP also works with other 
advanced civil nuclear fuel cycle countries and countries with an 
elevated risk of nuclear terrorism or nuclear emergency response needs. 
Such cooperation includes:
  --Training courses on radiological/nuclear incident response and 
        consequence management;
  --Technical advice and reach-back on incident response;
  --Joint technical experiments;
  --Tabletop and field exercises on response and consequence management 
        for radiological/nuclear incidents, accidents, and threats.
    NNSA's Office of Global Material Security (GMS) works with foreign 
counterparts to develop their capability to prevent, detect and 
interdict smuggling of nuclear and radiological material that could be 
used in an improvised nuclear device (IND) or radiological dispersal 
device (RDD) event, and to strengthen these partners' abilities to 
forensically analyze interdicted material. NNSA conducts this work in 
coordination with the Department of State to ensure a whole of 
government approach is taken when improving the capabilities of foreign 
partners' capabilities. GMS has provided radiation detection systems, 
and associated training and technical support to more than 60 
countries. GMS also has a number of prioritization tools and engagement 
strategies to enhance nuclear and radiological security at sites in 
more than 100 countries worldwide.
    Additional detail on these activities can be provided in a follow-
on briefing.
    Question. The NNSA has many facilities that date back to the 
Manhattan project and are in need of being torn down and replaced, 
especially for safety and security reasons. This is a big concern 
because, as you know, NNSA facilities are responsible for the safety 
and reliability of many components of US nuclear weapons systems. This 
year, Congress appropriated more than $2.8 billion to NNSA's 
Infrastructure and Operations program to address this issue, and the 
President is requesting a similar amount in the fiscal year 2018 
budget. Could you please describe NNSA's current effort and future 
initiatives to address the deteriorating infrastructure and backlog of 
deferred maintenance at NNSA facilities?
    Answer. During fiscal year 2016, NNSA achieved the goal of halting 
the growth of deferred maintenance, which previously had been growing 
by hundreds of millions of dollars per year for nearly a decade. NNSA's 
fiscal year 2017 enacted budget, which includes significant additional 
support from Congress, should actually begin to decrease NNSA's 
deferred maintenance.
    To revitalize NNSA's infrastructure and control deferred 
maintenance, NNSA is:
  --Deploying new decisionmaking tools for more effective use of 
        resources;
  --Expanding the use of Asset Management Programs, which achieve 
        economies of scale and maintenance standardization for critical 
        building systems common across the enterprise (e.g. roofs, 
        HVAC);
  --Disposing of unneeded facilities; and
  --Implementing improved project management systems and all 
        appropriate acquisition options to ensure cost effective 
        delivery of new construction.
    Since fiscal year 2015 NNSA has requested higher percentage of 
funding for recapitalization and maintenance projects. These funding 
increases are essential to decreasing deferred maintenance, arresting 
the declining state of infrastructure, increasing productivity, 
improving safety, eliminating costly compensatory measures, and 
shrinking the NNSA footprint through the disposition of unneeded 
facilities. Maintenance investments are focused on limiting the growth 
of deferred maintenance; while recapitalization focuses on replacing or 
refurbishing outdated and inadequate facilities. NNSA prioritizes our 
recapitalization projects based on standardized criteria that assess 
each project's relative importance to achieving mission results, 
improving safety, and reducing deferred maintenance.
    Also, the DOE Office of Environmental Management (EM) request 
includes $225 million for a targeted effort to accelerate deactivation 
and decommissioning (D&D) of specific high-risk facilities at the Y-12 
National Security Complex and the Lawrence Livermore National 
Laboratory not currently in the EM programs' inventory to achieve 
substantial risk reduction within 4 years. This effort supports 
modernization of the nuclear security enterprise. Below is a list of 
the NNSA Y-12 and Lawrence Livermore facilities that are part of this 
effort in rough priority order by site.
    Y-12 National Security Complex
  --Alpha-4 Building 9201-4 COLEX Process Equipment
  --Beta-4 Classified Tool Storage Facility Building 9720-24
  --Critical Experiment Facility Building 9213
    Lawrence Livermore National Laboratory
  --Pool Type Reactor Building 280
  --MARS E-Beam Facility Building 175
  --Heavy Elements Facility Building 251
    Question. In your written testimony you highlight several 
priorities including the design of a new propulsion plant and the 
refueling of a research and training reactor for the new Columbia-class 
submarine program. Can you discuss the importance of these projects as 
you prepare to build this new class of submarine?
    Answer. Naval Reactors is responsible for the design of the 
propulsion plant for the Columbia-class submarine including: the design 
of the life-of-ship core and reactor plant, design of the steam and 
electric plant portions of the propulsion plant including the 
integrated power system (electric drive), integration of the propulsion 
plant into the overall submarine, and ensuring the design and 
manufacturability of the propulsion plant components. This propulsion 
plant will not require refueling, allowing the Navy to meet U.S. 
STRATCOM's operational requirements with a SSBN force of 12 vice the 14 
Ohio-class SSBNs currently required, at a savings of $40 billion over 
the life of the ship. In addition to our continuing nuclear fleet 
support role, this effort is of the highest priority within Naval 
Reactors.
    Over the next several years, we will be completing the final 
designs and conducting manufacturing qualification of the major reactor 
plant components. We will also be completing the prototype manufacture 
and beginning system level integration testing of the prototype 
electric drive components. Advance Procurement of propulsion plant 
Government Furnished Equipment begins in fiscal year 2019 to support 
ship construction start in fiscal year 2021 and ship delivery in fiscal 
year 2028.
    The S8G Prototype Refueling Overhaul is also important to our 
overall development effort of the Columbia-class' life-of-ship reactor 
core--a reactor core that will last the 42-year life of the ship.
    As part of the S8G Prototype refueling effort, NR is manufacturing 
the Technology Demonstration Core (TDC), which will use the alternate 
core materials necessary to support the life-of-ship reactor core for 
the Columbia-class submarine and manufacture and installing the TDC 
core. The S8G Prototype will reduce the reactor core manufacturing risk 
for the Columbia-class and provide operational data that will inform 
performance predictions for the Columbia-class ships. The refueling 
overhaul will complete in fiscal year 2021 and the prototype will be 
available for research and development efforts as well as student 
training for another 20 years.
    My staff is focused daily on ensuring Naval Reactors successfully 
delivers these projects on time and within budget to make the Columbia-
class submarine a successful strategic deterrent platform, that the 
first ship is mission ready on its first strategic deterrent patrol in 
2031, and that the last ship of the class lasts through the 2080's. 
With the expertise contained within the Naval Nuclear Propulsion 
Program combined with your continued support, these challenges are 
manageable and currently support the construction of the lead ship 
starting in fiscal year 2021.
    Question. Are there any additional resources you need or does the 
budget request ensure that Naval reactors can safely oversee our 
nuclear-powered Navy fleet?
    Answer. Naval Reactor's mission is to provide militarily effective 
nuclear propulsion plants and ensure their safe, reliable, and long-
lived operation. In fiscal year 2018, this entails effective oversight 
of the operation and maintenance of 101 reactors in 75 submarines, 11 
aircraft carriers, and 4 training and research reactors. Full support 
of Naval Reactors' budget request for fiscal year 2018 will ensure that 
this mission can be met.

                          SUBCOMMITTEE RECESS

    Senator Alexander. Thank you for being here today. The 
subcommittee will stand adjourned.
    [Whereupon, at 4:21 p.m., Wednesday, June 14, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]
</pre></body></html>
